<html>
<title> - OVERSIGHT HEARING ON PROMOTING ONSHORE OIL AND GAS DEVELOPMENT IN ALASKA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


          PROMOTING ONSHORE OIL AND GAS DEVELOPMENT IN ALASKA

=======================================================================

                           OVERSIGHT HEARING

                               	BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, July 18, 2017

                               __________

                           Serial No. 115-17

                               __________

       Printed for the use of the Committee on Natural Resources
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-388 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b6c7b644b687e787f636e677b2568646625">[email&#160;protected]</a>          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Darin LaHood, IL
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT

                 Todd Ungerecht, Acting Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 
                                 
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                      PAUL A. GOSAR, AZ, Chairman
            ALAN S. LOWENTHAL, CA, Ranking Democratic Member

Louie Gohmert, TX                    Anthony G. Brown, MD
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Niki Tsongas, MA
Stevan Pearce, NM                    Jared Huffman, CA
Glenn Thompson, PA                   Donald S. Beyer, Jr., VA
Scott R. Tipton, CO                  Darren Soto, FL
Paul Cook, CA                        Nanette Diaz Barragan, CA
  Vice Chairman                      Vacancy
Garret Graves, LA                    Vacancy
Jody B. Hice, GA                     Raul M. Grijalva, AZ, ex officio
Darin LaHood, IL
Jack Bergman, MI
Liz Cheney, WY
Rob Bishop, UT, ex officio
                               ---------                                
                                
                                CONTENTS

                                ----------                              
                                                                   Page

Hearing held on Tuesday, July 18, 2017...........................     1

Statement of Members:
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     3
    Lowenthal, Hon. Alan S., a Representative in Congress from 
      the State of California....................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Dixon, Gary, Vice President, International Brotherhood of 
      Teamsters Local 959 Alaska, Anchorage, Alaska..............    24
        Prepared statement of....................................    26
    Glenn, Richard, Executive Vice President for Lands and 
      Natural Resources, Arctic Slope Regional Corporation, 
      Anchorage, Alaska..........................................     7
        Prepared statement of....................................     8
        Questions submitted for the record.......................    12
    Jepsen, Scott, Vice President, External Affairs and 
      Transportation, ConocoPhillips Alaska, Anchorage, Alaska...    38
        Prepared statement of....................................    39
        Questions submitted for the record.......................    50
    Pourchot, Pat, Former Special Assistant to the Secretary of 
      the Interior for Alaska Affairs, Anchorage, Alaska.........    31
        Prepared statement of....................................    32
        Questions submitted for the record.......................    36
                                     


 
   OVERSIGHT HEARING ON PROMOTING ONSHORE OIL AND GAS DEVELOPMENT IN 
                                 ALASKA

                              ----------                              


                         Tuesday, July 18, 2017

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:41 p.m., in 
room 1324, Longworth House Office Building, Hon. Paul Gosar 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gosar, Gohmert, Lamborn, Wittman, 
Hice, Bergman, Bishop; Lowenthal, Tsongas, Beyer, and Soto.
    Also present: Representative Young.
    Dr. Gosar. The Subcommittee on Energy and Mineral Resources 
will come to order.
    The Subcommittee is meeting today to hear testimony on 
promoting onshore oil and gas development in Alaska.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman, the Ranking Minority 
Member, and the Vice Chair. This will allow us to hear from our 
witnesses sooner, and help Members keep to their schedules.
    Therefore, I ask unanimous consent that all Members' 
opening statements be made part of the hearing record, if they 
are submitted to the Subcommittee Clerk by 5:00 p.m. today.
    Without objection, so ordered.

 STATEMENT OF HON. PAUL A. GOSAR, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Dr. Gosar. Today, the Subcommittee will examine 
opportunities to promote oil and gas development in the state 
of Alaska. Alaska's North Slope contains some of the Nation's 
most abundant resources of oil and natural gas, including two 
of the Nation's highest producing oil fields. This region has 
the capacity to provide the state of Alaska, as well as the 
Lower 48 states, with affordable, reliable energy for years to 
come. Unfortunately, the United States continues to rely on oil 
sourced from foreign nations to fill its refineries, while much 
of Alaska's North Slope remains untapped.
    The oil and gas industry in Alaska serves as a source of 
employment, revenue, and affordable energy for local 
communities throughout the state. In fact, roughly one-third of 
the jobs in the state are supported by the oil and gas 
industry. Unfortunately, decreased rates of production, low oil 
prices, and over-regulation have negatively impacted the 
industry and, by extension, the Alaskan economy.
    Under the Obama administration, millions of acres in the 
North Slope were made off limits to oil and gas development. 
This egregious Federal over-reach, coupled with burdensome and 
costly permitting processes, have constrained exploration and 
production in this resource-rich region.
    The National Petroleum Reserve-Alaska, or NPR-A, in the 
northwestern corner of the state, was set aside for oil and gas 
development by the Federal Government in the 1920s. Industry 
has recently announced discoveries and promising new projects 
within the NPR-A, indicating that there are significant 
untapped resources within the Reserve.
    However, the Obama administration's 2013 management plan 
made half of the Reserve's 22 million acres unavailable to 
leasing, precluding the development of some 350 million barrels 
of oil and 45 trillion cubic feet of natural gas. Where 
development is allowed, companies operating in the NPR-A 
continuously encounter costly and unnecessary permitting delays 
on new projects. Each month that new projects are delayed means 
lost revenue, taxes, and jobs for the people of Alaska.
    The policies of the previous administration have not only 
negatively impacted the energy economy, but have resulted in 
avoidable infrastructure challenges. Needlessly restricting 
responsible new development has resulted in less production, 
forcing the TAPS pipeline to operate in conditions it was never 
designed to handle. Although the pipeline operators have 
responded to these challenges and have kept the oil flowing, 
these challenges will remain a threat to this critical piece of 
energy infrastructure until a more sustainable level of 
throughput is achieved.
    In the state's northeast corner, the Arctic National 
Wildlife Refuge, or ANWR, is also known to contain considerable 
oil and gas resources. When Congress established the Refuge in 
1980, it recognized the potential for oil and gas development 
in the Coastal Plain region, or 1002 area.
    This region, which spans just 1.57 million acres of the 19 
million-acre Refuge, was specifically set aside by Congress for 
an assessment of its recoverable resources. The Reagan 
administration noted the region's capacity for robust 
production and recommended full energy development of the 1002 
area. While this area contains ample oil and gas resources, 
energy development is currently prohibited and only Congress 
can authorize oil and gas development and activity.
    Energy development in the state of Alaska is a key 
component of achieving American energy independence. Enabling 
new opportunities for exploration and development, especially 
in the NPR-A and in ANWR, will create thousands of good jobs, 
generate billions in revenue for the state of Alaska and the 
Federal Government, and bring us closer to achieving energy 
independence.
    Today, we will hear from witnesses representing the Alaska 
Native community, industry operators in the North Slope, and 
the Alaska labor force. These witnesses will provide testimony 
reflecting on the benefits that the oil and gas industry 
provides to Alaska Native communities, while also balancing the 
need for reasonable environmental and species protection.
    We will also hear about current projects and opportunities 
for further development in the North Slope, as well as 
regulatory obstacles imposed by the Federal Government.
    Finally, we will discuss the importance that robust oil and 
gas production has for the Alaska labor force, and how reduced 
industry activity impacts jobs in multiple sectors of the 
state's economy.
    [The prepared statement of Dr. Gosar follows:]
Prepared Statement of the Hon. Paul A. Gosar, Chairman, Subcommittee on 
                      Energy and Mineral Resources
    Today, the Subcommittee will examine opportunities to promote oil 
and gas development in the state of Alaska. Alaska's North Slope 
contains some of the Nation's most abundant resources of oil and 
natural gas, including two of the Nation's highest producing oil 
fields. This region has the capacity to provide the state of Alaska, as 
well as the lower 48 states, with affordable, reliable energy for years 
to come. Unfortunately, the United States continues to rely on oil 
sourced from foreign nations to fill its refineries, while much of 
Alaska's North Slope remains untapped.
    The oil and gas industry in Alaska serves as a source of 
employment, revenue and affordable energy for local communities 
throughout the state. In fact, roughly one-third of the jobs in the 
state are supported by the oil and gas industry. Unfortunately, 
decreased rates of production, low oil prices, and over-regulation have 
negatively impacted the industry and by extension, the Alaskan economy.
    Under the Obama administration, millions of acres in the North 
Slope were made off limits to oil and gas development. This egregious 
Federal over-reach, coupled with burdensome and costly permitting 
processes, have constrained exploration and production in this 
resource-rich region.
    The National Petroleum Reserve-Alaska, or NPR-A, in the 
northwestern corner of the state, was set aside for oil and gas 
development by the Federal Government in the 1920s. Industry has 
recently announced discoveries and promising new projects within the 
NPR-A, indicating that there are significant untapped resources within 
the Reserve. However, the Obama administration's 2013 management plan 
made half of the Reserve's 22 million acres unavailable to leasing, 
precluding the development of some 350 million barrels of oil and 45 
trillion cubic feet of gas. Where development is allowed, companies 
operating in the NPR-A continuously encounter costly and unnecessary 
permitting delays on new projects. Each month that new projects are 
delayed means lost revenue, taxes, and jobs for the people of Alaska.
    The policies of the previous administration have not only 
negatively impacted the energy economy, but have resulted in avoidable 
infrastructure challenges. Needlessly restricting responsible new 
development has resulted in less production, forcing the TAPS pipeline 
to operate in conditions it was not designed to handle. Although the 
pipeline operators have responded to these challenges and have kept the 
oil flowing, these challenges will remain a threat to this critical 
piece of energy infrastructure until a more sustainable level of 
throughput is achieved.
    In the state's northeast corner, the Arctic National Wildlife 
Refuge, or ANWR, is also known to contain considerable oil and gas 
resources. When Congress established the Refuge in 1980, it recognized 
the potential for oil and gas development in the Coastal Plain region, 
or 1002 area. This region, which spans just 1.57 million acres of the 
19 million-acre Refuge, was specifically set aside by Congress for an 
assessment of its recoverable resources. The Reagan administration 
noted the region's capacity for robust production and recommended full 
energy development of the 1002 area. While this area contains ample oil 
and gas resources, energy development is currently prohibited and only 
Congress can authorize oil and gas development activity.
    Energy development in the state of Alaska is a key component of 
achieving American energy independence. Enabling new opportunities for 
exploration and development, especially in the NPR-A and in ANWR, will 
create thousands of good jobs, generate billions in revenue for the 
state of Alaska and the Federal Government, and bring us closer to 
achieving energy independence.
    Today, we will hear from witnesses representing the Alaskan Native 
community, industry operators in the North Slope and the Alaskan labor 
force. These witnesses will provide testimony reflecting on the 
benefits the oil and gas industry provides Alaskan Native communities, 
while also balancing the need for reasonable environmental and species 
protections. We will also hear about current projects and opportunities 
for further development in the North Slope, as well as regulatory 
obstacles imposed by the Federal Government. Finally, we will discuss 
the importance robust oil and gas production has for the Alaskan labor 
force and how reduced industry activity impacts jobs in multiple 
sectors of the state's economy.

                                 ______
                                 

    Dr. Gosar. The Chairman now recognizes the Ranking Minority 
Member for his statement.

 STATEMENT OF THE HON. ALAN S. LOWENTHAL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Dr. Lowenthal. Thank you, Mr. Chairman. I would like to 
thank all the witnesses, first, for being here, particularly 
since many of you traveled quite a distance to be here today. 
And I would just like to preface what I say by saying we may 
all be passionate up here and we may differ on our priorities 
about onshore oil and gas development. I would like to say I 
plan to continue the collegiality which has been promoted by 
the Chairman on this Committee, and I appreciate that, that we 
differ from each other, which we did also with the past 
Chairman, also, and anybody else who aspires to be Chairman.
    [Laughter.]
    Dr. Lowenthal. Oil and gas development in Alaska is not an 
easy issue to grapple with. It is also not an easy thing to 
actually do. The North Slope of Alaska is one of the most 
remote corners of our Nation, with the only car or truck access 
being one lonely 400-mile gravel road.
    Most of the region, which is larger than the state of 
Minnesota, has only 9,000 residents, and is only accessible by 
airplane. It is vast and, for many of us in the Lower 48, 
unbelievably wild. For months, there is no sunshine, and 
temperatures plunge well below zero. In the summer, an amazing 
array of animals populate the lakes and the tundra of the North 
Slope: caribou, migratory birds, bears, wolves, and many more. 
The Native people, who have lived here for more than a 
millennia, depend upon these animals for their food and for 
their culture.
    But despite the sense of rugged wilderness, the region is 
also tremendously fragile. The climate is changing faster in 
the Arctic than anywhere else on the planet, and the impacts 
are dramatic. The loss of sea ice is well known. The two 
smallest Arctic ice caps ever recorded occurred in the past 5 
years, and this year could easily be the smallest yet.
    Less ice means a less protected coastline, more vulnerable 
to waves and storms that erode the land at a tremendous rate. 
Warmer temperatures lead to melting permafrost, invasive 
species, changed migration patterns, and fires. And these are 
all being seen, not simply predicted far into the future.
    And in the middle of this wild, fragile, and rapidly 
changing environment is one of the largest oil fields in North 
America. We have already sacrificed the area around Prudhoe Bay 
to our nearly insatiable thirst for oil. A network of drill 
pads, roads, and pipelines criss-cross the tundra for over 100 
miles, and it is still growing. Much of this development has 
occurred on state and tribal lands. The Obama administration 
also gave the green light to the first commercial development 
on Federal lands.
    But it is acknowledged that there have to be some limits. 
There has to be a balance, a balance between development and 
conservation. There may be areas that are appropriate for 
drilling, but there are also areas that must be protected, 
particularly in an area like the Arctic.
    The Obama administration's 2013 integrated management plan 
for the National Petroleum Reserve-Alaska, the NPR-A, reflects 
that vision of balance. Over half of the Reserve, containing an 
estimated three-quarters of the economically recoverable oil, 
is made available for development. And slightly less than half 
of the Reserve is protected, including the vital area around 
Teshekpuk Lake, which is a critical calving area for the 
Teshekpuk caribou herd, and home to numerous species of birds 
during the summer months, including raptors, waterfowls, and 
shorebirds that migrate from as far as South America.
    Unfortunately, the Trump administration, in its quest for 
energy dominance, appears ready to upset this balance and open 
the entire North Slope to unfettered development. Not only is 
the 4-year-old management plan for the NPR-A going to be 
rewritten, but the Arctic National Wildlife Refuge is also at 
risk. The Coastal Plain is often called the biological heart of 
the Refuge, providing essential habitat for polar bears, the 
porcupine caribou herd, and over 250 species of birds.
    The irreversible damage we could inflict on this area by 
drilling on it is disproportionately high compared to the 
amount of oil we could possibly extract. It simply isn't worth 
it.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    [The prepared statement of Mr. Lowenthal follows:]
   Prepared Statement of the Hon. Alan S. Lowenthal, Ranking Member, 
              Subcommittee on Energy and Mineral Resources
    Thank you, Mr. Chairman.
    I would like to thank the witnesses for being here, particularly 
since many of you traveled a very long way to be here today.
    Oil and gas development in Alaska is not an easy issue to grapple 
with. It is also not an easy thing to actually do. The North Slope of 
Alaska is one of the most remote corners of this Nation, with the only 
car or truck access being one lonely 400-mile gravel road.
    Most of the region, which is larger than the state of Minnesota but 
has only 9,000 residents, is accessible only by airplane. It is 
unbelievably vast and for many of us in the Lower 48, unbelievably 
wild. For months there is no sunshine and temperatures plunge well 
below zero. In the summer, an amazing array of animals populate the 
lakes and the tundra of the North Slope: caribou, migratory birds, 
bears, wolves, and many more.
    The Native people who have lived there for millennia depend on 
these animals for their food and for their culture. But despite the 
sense of rugged wilderness, the region is also tremendously fragile.
    The climate is changing faster in the Arctic than anywhere else in 
the world, and the impacts are dramatic. The loss of sea ice is well 
known. The two smallest Arctic ice caps ever recorded occurred in the 
past 5 years, and this year could easily be the smallest yet.
    Less ice means a less-protected coastline, more vulnerable to waves 
and storms that erode the land at a tremendous rate. Warmer 
temperatures lead to melting permafrost, invasive species, changed 
migration patterns, and fires--and these are all being seen, not simply 
predicted for far in the future.
    And in the middle of this wild, fragile, and rapidly changing 
environment is one of the largest oil fields in North America.
    We have already sacrificed the area around Prudhoe Bay to our 
nearly insatiable thirst for oil. A network of drill pads, roads, and 
pipelines criss-crosses the tundra for over 100 miles, and it is still 
growing. Much of this development has occurred on state and tribal 
land. The Obama administration gave the green-light to the first 
commercial development on Federal land.
    But it also acknowledged that there have to be limits. There has to 
be balance--a balance between development and conservation. There may 
be areas appropriate for drilling. But there are also areas that must 
be protected, particularly in an area like the Arctic.
    The Obama administration's 2013 integrated management plan for the 
NPR-A reflects that vision of balance. Over half of the Reserve, 
containing an estimated three-quarters of the economically recoverable 
oil, is made available for development. And slightly less than half of 
the Reserve is protected, including the vital area around Teshekpuk 
Lake, which is a critical calving area for the Teshekpuk Caribou Herd, 
and home to numerous species of birds during the summer months, 
including raptors, waterfowl, and shorebirds that migrate from as far 
as South America.
    Unfortunately, the Trump administration, in its quest for energy 
dominance, appears eager to upset this balance and open the entire 
North Slope to unfettered development. Not only is the 4-year-old 
management plan for the NPR-A going to be rewritten, but the Arctic 
National Wildlife Refuge is also at risk.
    The Coastal Plain is often called the biological heart of the 
Refuge, providing essential habitat for polar bears, the porcupine 
caribou herd, and over 250 species of birds. The irreversible damage we 
could inflict on this area by drilling on it is disproportionately high 
compared to the amount of oil we could possibly extract. It simply 
isn't worth it.
    Thank you, Mr. Chairman, and I yield back the balance of my time.

                                 ______
                                 

    Dr. Gosar. Do you know they have a special type of animal 
called the Alaskan mosquito up there.
    Dr. Lowenthal. They do.
    Dr. Gosar. Yes, they will just carry you away.
    Dr. Lowenthal. Big mosquito.
    Dr. Gosar. They are.
    Dr. Lowenthal. Very big.
    Dr. Gosar. I will now introduce our witnesses.
    First, we have Mr. Richard Glenn, Executive Vice President 
for Lands and Natural Resources, Arctic Slope Regional 
Corporation; Mr. Gary Dixon, Vice President, International 
Brotherhood of Teamsters, Local 959 Alaska; Mr. Pat Pourchot, 
Former Special Assistant to the Secretary of the Interior for 
Alaska Affairs.
    Did I say that right? OK.
    And Mr. Scott Jepsen, Vice President, External Affairs and 
Transportation, ConocoPhillips Alaska.
    I want to remind the witnesses that under our rules, they 
must limit their oral statements to 5 minutes, but their entire 
statement will appear in the record.
    Our microphones are not automatic, so you have to push the 
button to be able to speak.
    You will actually see some lights. For the first 4 minutes 
it will stay green, then turn to yellow. When you see the red, 
summarize and close; just remember that your full testimony 
will be part of the record.
    I will allow the entire panel to testify before questioning 
the witnesses.
    The Chairman now recognizes Mr. Glenn to testify for his 5 
minutes. Thank you.

STATEMENT OF RICHARD GLENN, EXECUTIVE VICE PRESIDENT FOR LANDS 
   AND NATURAL RESOURCES, ARCTIC SLOPE REGIONAL CORPORATION, 
                       ANCHORAGE, ALASKA

    Mr. Glenn. Thank you, Chairman Gosar, Ranking Member 
Lowenthal, and members of the Subcommittee. My name is Richard 
Glenn. I serve as Executive Vice President of Lands and Natural 
Resources for the Arctic Slope Regional Corporation (ASRC).
    Background on this corporation is included in my written 
testimony, but in short, ASRC is 1 of the 12 land-holding 
regional Native corporations established by Congress in 1971 by 
the Alaska Native Claims Settlement Act. ASRC's region, where I 
come from, is located in this northern region of the state 
described by you both. The residents are largely Inupiat 
Eskimos, and comprise also the shareholder owners of ASRC.
    For many, the Arctic environment is a distant and 
forbidding place. But for us, it is our home. The presence of 
the oil and gas industry is the economic base for what have 
become improvements to our cities, towns, and villages. Our 
people, therefore, as the Ranking Member said, depend upon a 
healthy environment to support our subsistence needs, but we 
also depend on a healthy energy industry to provide the tax 
base that fuels the North Slope Borough Government, our local 
county government, to create these important quality-of-life 
improvements to our communities.
    Many in Congress are under the misguided notion that 
onshore development somehow harms fish, wildlife, and water 
resources there. This would be of great concern to us, because 
we depend on those very animals. No matter how many images that 
we provide of caribou, ducks, fish, and polar bears unharmed 
and undisturbed near oil field infrastructure, hunting and 
harvesting our wildlife does require room and open space. Our 
region is large enough to support both development and 
subsistence.
    Currently, resource development is the only viable industry 
in our region. It builds the schools for our children and 
enables us to have clean water and flush toilets: things that 
the rest of the Nation takes for granted. We have to cultivate 
the presence of industry in our region with care and good 
practices, and this is best accomplished by maintaining stable 
policies and responsible, reasonable conditions. If we do this, 
resource development will limit itself, while yielding an 
economy upon which almost every Alaska village depends.
    ASRC owns 5 million acres of land in this region, and they 
are highly prospective for oil, gas, and minerals. Some of the 
lands are very distant from today's development, and some are 
located right in the exploration fairway that we are discussing 
today. For example, ASRC's ownership in the Alpine and related 
oil fields is in the Colville River Delta, whose ownership we 
share with the local village and the state of Alaska. And this 
trend continues on into Federal-owned lands.
    The royalty benefits from the Alpine fields and from fields 
yet to produce represent tens of millions of dollars of 
benefits per year to ASRC and its shareholders over the 
lifetime of production. In addition, a much larger portion of 
the royalty revenue has been distributed to all the regional 
corporations and village corporations of the state by virtue of 
an ANCSA provision that requires 70 percent of our resource 
revenue be shared with the other Native regions.
    ASRC, following the law of Congress, has been required to 
and shared its requisite amount to the other Native 
corporations, so energy has become a part of the economic self-
determination of every Alaska Native who is a member of a 
village or regional corporation.
    Despite these successes, there are obstacles to accessing 
Native-owned resources, and there are obstacles to the Federal 
resources in our region. And outlined in my written testimony 
are many, many examples of these obstacles and delays.
    There is a need for a careful pace of environmental review 
and appropriate mitigation with respect to resource 
development, but we have seen this taken to excess. I urge you 
to read my comments for explicit details of these.
    Regarding ANWR, we know that the issues are different. 
Exploration and development of ANWR will not take place unless 
Congress acts, but there are Native lands inside of ANWR that 
we think we have a shot at developing our own lands, and we 
deserve that shot. It can be done in a safe manner, and will be 
a great benefit to the people of the North Slope, and the 
country as a whole.
    Access to energy resources is a part of the economic self-
determination of our people, and we urge Congress to retain and 
remain a steady partner in access to these resources. Consider 
the people who live there and look north to empower our state 
and local communities to responsibly develop our own natural 
resources.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Glenn follows:]
 Prepared Statement of Richard K. Glenn, Executive Vice President for 
     Lands and Natural Resources, Arctic Slope Regional Corporation
    Chairman Gosar, Ranking Member Lowenthal, and members of the 
Subcommittee, my name is Richard Glenn and I serve as Executive Vice 
President for Lands and Natural Resources of Arctic Slope Regional 
Corporation (ASRC).
                               about asrc
    Arctic Slope Regional Corporation is 1 of 12 land-owning Alaska 
Native regional corporations established pursuant to the Alaska Native 
Claims Settlement Act of 1971 (ANCSA). ASRC's region is the North Slope 
of Alaska and encompasses 55 million acres (the informal names ``North 
Slope'' and ``Arctic Slope'' are geographically identical and are 
alternately used when one or the other has become more associated with 
a given usage or is a part of a formal name). The North Slope region 
includes the villages of Point Hope, Point Lay, Wainwright, Atqasuk, 
Utqiagvik (formerly known as Barrow), Nuiqsut, Kaktovik, and Anaktuvuk 
Pass. The North Slope residents of the villages that I have named are 
also citizens of the North Slope Borough, a home-rule municipality. The 
residents are largely Inupiat (North Alaskan ``Eskimos''); and they 
comprise many of the shareholder owners of ASRC. North Slope village 
residents depend on subsistence resources from the land, rivers and 
ocean, as they have for millennia. Within this large region ASRC also 
holds title to approximately 5 million acres of surface and subsurface 
estate conveyed to it by ANCSA, much of it with energy, mineral and 
other resource potential. Among many other efforts, ASRC pursues and 
benefits from natural resource development on and near its lands. 
Energy development of Native-owned and State-owned lands is a major 
component of the success of ASRC and its region. Energy resource 
development and in some cases energy resource ownership have provided 
for substantial gains in economic self-determination for ASRC's growing 
shareholder base of approximately 13,000.
    Under ANCSA, Congress created Native corporations, including ASRC, 
as profit-making entities ``to provide benefits to its shareholders who 
are Natives or descendants of Natives or to its shareholders' immediate 
family members who are Natives or descendants of Natives to promote the 
health, education or welfare of such shareholders or family members.'' 
Consistent with this unique mandate, ASRC is committed both to 
providing sound financial returns to our shareholders in the form of 
jobs and dividends, and to preserving our Inupiat way of life, culture 
and traditions, including the ability to hunt for food to provide for 
our communities.
    A portion of our corporate revenues are invested in initiatives 
that aim to promote and support an educated shareholder base, healthy 
communities and sustainable local economies. Our perspective is based 
on the dual realities that our Inupiat culture and communities depend 
upon a healthy ecosystem and the subsistence resources it provides, and 
upon present and future oil and gas development as the foundation of a 
sustained North Slope economy.
             layers of land ownership in alaska: background
    Mr. Chairman and Committee members, the present layers of local 
government, resource ownership and representation in our region can be 
very confusing for outsiders, even for those who are familiar with 
tribal relations and governance. A brief review may be helpful for some 
and is included in my written testimony.
    The Native-occupied lands of northern Alaska were never ceded away 
by any treaty nor lost in any battle. The Treaty of Cession, which 
ratified the United States' 1867 purchase of Alaska from Russia, 
recognized that the Native residents of Alaska existed and had rights. 
Following Alaska's purchase, however, the Alaska Natives' land rights 
remained in limbo for generations. While Alaska was still a territory, 
the Federal Government appropriated massive swaths of land with little 
regard for the land ownership rights of the Natives who lived there. In 
the Arctic Slope region there were two such Federal withdrawals of 
land: In 1923, the formation of the 23-million acre Naval Petroleum 
Reserve No. 4 by President Warren G. Harding, and in 1960, the 
formation of the 8 million acre Arctic National Wildlife Range by 
President Eisenhower.
    Statehood in Alaska, in 1959, similarly overlooked aboriginal land 
and resource ownership rights. The state did allow for the formation of 
city (and eventually borough) governments which could tax, zone, and 
offer community improvements within their areas of authority, but 
offered no method to validate the assertion of aboriginal title. 
Against this land ownership vacuum, the exploration for energy 
resources around known oil and gas seeps on the North Slope intensified 
in the 1960s, including the gobbling up of North Slope lands by the 
young state of Alaska for its own benefit. Tensions rose and eventually 
action was taken at the Federal level. In 1966 Interior Secretary 
Stewart Udall declared that no oil would be developed and no more state 
lands would be conveyed to Alaska until the issue of aboriginal title 
was resolved. The ``land freeze'' occurred right before the discovery 
of the massive Prudhoe Bay oil field in 1968-69. The terms of ANCSA 
were negotiated and debated in Congress and eventually ratified by 
December of 1971.
    The result was the extinguishment of aboriginal land title in 
Alaska and the formation of land-owning Native regional and village 
corporations. The land base represented a fraction (in ASRC's case 
about 10 percent) of the land that was originally claimed by the Native 
peoples. The Federal Government offered cash settlement as additional 
compensation. With the land base and cash settlement as start-up 
assets, the ANCSA corporations were intended to succeed as profitable 
corporations delivering benefits to their Alaskan Native shareholders.
    Briefly, the indigenous leadership of the people of the North Slope 
sanctioned the formation of what were to become federally recognized 
tribes. The same leadership at first opposed, and then abided by the 
terms of ANCSA, which extinguished aboriginal title. Some lands with 
resource potential were conveyed back to the Arctic Slope Native 
corporations, along with an additional cash settlement. The Federal and 
State governments took the remainder of the lands, a taking which still 
pains many of those who argued for or against the terms of ANCSA before 
ratification. Those of us who came of age during these years are of 
mixed views on this history. For the most part, the leadership that 
negotiated the terms of ANCSA and ASRC leadership have been trying to 
make the best of the Act for the benefit of our shareholders.
    Using myself as an example, by virtue of Indian Law, ANCSA law, and 
State law, I am a tribal member, and a village and regional corporation 
shareholder. My tribe today possesses many rights similar to those of 
other Indian tribes, but in general owns no land or natural resources. 
My village and regional corporations own title to ANCSA-conveyed lands 
and natural resources, and have formed for-profit operating 
subsidiaries that offer employment and dividend and other benefits to 
their shareholders. The institutions that represent us are thus split 
into at least three broad swaths, yet braided together like rope and 
operate on our behalf.
  energy development as a tool of self-determination--the north slope 
                                borough
    The presence of the oil and gas industry in our region is the 
economic base for what have become improvements to our cities and 
towns. Our community is empowered by oil and gas development. The North 
Slope Borough employs the largest number of village residents on the 
North Slope; maintains its own Department of Wildlife Management, which 
invests heavily in protecting our subsistence resources; and maintains 
stringent permitting requirements for oil and gas companies that 
operate within our region. Our people therefore depend on a healthy 
Arctic environment to support subsistence species (caribou, waterfowl, 
marine mammals, fish and others), and also depend on a healthy energy 
industry to provide the tax base that fuels the North Slope Borough 
government operations. While these dependencies appear to be in 
conflict, it is the view of many on the North Slope that it is a 
totally appropriate one.
    Many in Congress are under the misguided notion that onshore Arctic 
development somehow harms the fish, wildlife, and waterfowl resources 
there. No matter how many images we provide of caribou, ducks, fish and 
even polar bears unharmed and undisturbed in close proximity, sometimes 
even directly on, over, or under oilfield infrastructure.
    By using a strong permitting and zoning process, the Borough today 
(as it has ever since its inception) regulates energy development on 
its terms to the greatest degree possible. The Borough then taxes the 
real property value of the pipelines, drill rigs, and other oil field 
production and transportation infrastructure. The Borough uses the 
infrastructure-derived tax proceeds to build, operate and maintain 
local education facilities and quality of life improvements (airstrips, 
roads, reliable power, improved housing and healthcare centers) in 
every one of the villages of our region.
    native ownership of lands and natural resources: the asrc story
    The lands conveyed to ASRC, some 5 million acres in total, are 
located in areas that either have known resources or are highly 
prospective for oil, gas, coal, and minerals. Some of the lands are 
remote and very distant from areas of current exploration and 
production. The state and Federal lands of the North Slope also contain 
similar energy resource potential. In fact the overwhelming majority of 
lands developed in Alaska to date have been on state-owned lands. The 
supergiant Prudhoe Bay (initial production in the 1970s) and Kuparuk 
River (1980s) fields were discovered and developed on state-owned 
lands, for example. Their development was a boon to the North Slope 
Borough tax base and to local Alaska Native corporation contractors 
offering jobs in oilfield construction and operations. Generations of 
ASRC shareholders and North Slope village residents have explored job 
opportunities in the development of state-owned North Slope fields. But 
the development of the state-owned lands offered no direct royalty 
benefits to the shareholders of ASRC.
    Exploration and development of oil and gas resources moved westward 
from the Prudhoe Bay/Kuparuk fields and eventually toward and into the 
Colville River delta. Finally, in the mid-1990s oil discoveries were 
made on Colville River delta lands that were owned jointly by the state 
of Alaska, ASRC (subsurface) and the Kuukpik Corporation (the surface 
landowner and the ANCSA village corporation representing the people of 
the Colville River delta village of Nuiqsut). The dominant discovery 
was the Alpine oil field, at its time the largest oilfield discovery in 
the Nation for more than a decade. Facilities were carefully planned 
and constructed over the next several years and in 2000 production 
finally began from the Alpine field. ASRC became a royalty revenue 
owner. Since production began, the Alpine oil field and its related 
satellite fields have produced a half a billion barrels of quality 
crude oil that has been shipped down the Trans Alaska Pipeline along 
with oil from the Prudhoe/Kuparuk and related fields that continue to 
produce to this day. Other Kuukpik/ASRC lands are slated for additional 
production.
    The royalty benefits from the Alpine, satellite-fields, and from 
fields yet to produce represent tens of millions of dollars of benefits 
per year to ASRC and its shareholders over the lifetime of production. 
In addition, a much larger portion of the royalty revenue has been 
distributed to all of the regional and village corporations of the 
state of Alaska by virtue of a provision in ANCSA that mandated for the 
sharing of natural resource wealth among all ANCSA corporations. The 
Act states in general, that 70 percent of natural resource royalty 
revenue received by a given regional corporation (and this includes 
oil, gas, minerals and timber resources) be shared amongst all the 
ANCSA regional corporations within Alaska, which must also share with 
the respective village corporations within their regions. As a result 
of its Colville River delta royalty position and the terms of ANCSA, 
ASRC has shared over a billion dollars to date with other ANCSA 
corporations in Alaska. Energy development has thus been a part of the 
economic self-determination of every Alaska Native who is a member of a 
village or regional corporation.
    The trend of the Alpine and related oil and gas discoveries runs 
right through the Colville River delta and heads west into the National 
Petroleum Reserve-Alaska (NPR-A), spanning state-owned, Alaska Native-
owned, and Federal lands.
   federal restrictions on access to native-owned lands and resources
    Despite our successes, Federal laws, regulations, and decision 
making remain obstacles to accessing Native-owned resources.
National Petroleum Reserve-Alaska (NPR-A)
    In prior years within the NPR-A, as our industry partners will 
inform you, there were attempts to over-mitigate development. By this I 
mean rather than making appropriate mitigation steps that were scaled 
to the development effort, multiple mitigation measures were 
considered, and in places, applied against development projects that 
were themselves ancillary in nature.

    The efforts of Kuukpik and ASRC, described above, to develop our 
own resources within the Alpine oil field have run into regulatory 
obstacles and unnecessary lengthy delays as we have sought to expand 
the development of the Alpine satellite fields (and potentially develop 
new finds) into the NPR-A. For example:

    <bullet> CD-5, the first commercial oil development on Alaska 
            Native (Kuukpik/ASRC) lands within the boundaries of the 
            NPR-A, was a project that gained strong support from all 
            stakeholders through several years of collaborative 
            planning. However, in February 2010, the U.S. Army Corps of 
            Engineers denied ConocoPhillips' permits to construct a 
            drill pad, a pipeline/vehicle bridge across the Nigliq 
            Channel in the Colville River delta and access roads. The 
            Corps later reversed course, but first production was 
            delayed by several years.

    <bullet> The Greater Mooses Tooth One (GMT-1) development, which 
            further extended the Alpine Field development, also 
            suffered from lengthy delays, with BLM largely failing to 
            consult with ASRC as a resource co-owner throughout the 
            process (BLM owns about 10 percent of the oil within the 
            GMT-1 Participating Area and ASRC owns the remainder).

    <bullet> For a time the GMT-1 development effort was threatened to 
            be saddled with the Federal share of developing a whole 
            regional mitigation strategy. This would have included 
            areas of exploration sponsored by the U.S. Navy and its 
            contractors from the 1940s-1980s.

      ASRC is currently engaged in discussions with the Bureau of Land 
            Management (BLM) about the Greater Mooses Tooth Two (GMT-2) 
            development, which also has suffered lengthy bureaucratic 
            delays. BLM initially failed to issue a Notice of Intent to 
            prepare a Supplemental Environmental Impact Statement 
            (SEIS) for the GMT-2 project until almost a year after 
            receiving unit operator ConocoPhillips' Application for 
            Permit to Drill (APD). Throughout the development of the 
            SEIS for GMT-2, BLM has delayed the process. This remains 
            the case notwithstanding the fact that the potential 
            impacts of the GMT-2 project already have been considered 
            three times under various reviews under the National 
            Environmental Policy Act (NEPA), including the 2013 NPR-A 
            Integrated Activity Plan EIS, the Alpine Satellite 
            Development Plan EIS (for which a Record of Decision was 
            issued in 2004), and the GMT-1 EIS.

Arctic National Wildlife Refuge (ANWR)
    Within ANWR, the issues are different. ASRC realizes that no 
development will take place on the Coastal Plain of ANWR unless 
Congress Acts. Yet, our goals regarding ANWR are the same: Continued 
advocacy for responsible onshore development with appropriate 
environmental review and safeguards.
    ASRC and Kaktovik Inupiat Corporation (KIC), the Native Village 
Corporation for the village of Kaktovik, also own more than 92,000 
subsurface and surface acres, respectively, within ANWR's Coastal 
Plain, an area identified for study under Section 1002 of the Alaska 
National Interest Lands Conservation Act of 1980 (ANILCA). Section 1003 
of ANILCA prohibited the leasing, development or production of oil and 
gas from ANWR's Coastal Plain, including on Native-owned lands, ``until 
authorized by an Act of Congress.''
    According to the U.S. Geological Survey (USGS), the mean estimate 
of technically recoverable oil from federally owned land in ANWR is 7.7 
billion barrels (billion bbl), and there is a chance that more than 
11.8 billion bbl could be recovered on the Federal lands over the life 
of production. By way of comparison, when the Prudhoe Bay oil field was 
discovered in 1968, it was estimated to contain about 9.6 billion 
barrels of recoverable oil. To date, the Prudhoe Bay field has produced 
about 17 billion barrels of oil. The Prudhoe Bay oil field will fuel 
Alaska's economy for 50 years. Measured development within the Coastal 
Plain of ANWR could fuel our economy for another 50 years.
    ANWR is roughly the size of South Carolina or Maine. It is a 
beautiful place, worthy of appropriate protections, but it is not an 
empty or unpopulated place. More than 200 people live in the village of 
Kaktovik, the only community within the boundaries of ANWR, along the 
Coastal Plain. All of ANWR's Coastal Plain is part of Inupiat 
traditional homelands and much of the land around Kaktovik remains in 
Native ownership today.
    We adhere to the traditional values of protecting the land, the 
environment and the culture of the Inupiat. That is why we have worked 
with Congressman Don Young and our Senators to ensure that a wide range 
of special environmental protective measures are included in 
legislation introduced over the years that would open the Coastal Plain 
to oil and gas leasing. Congressman Young's most recent bill, H.R. 49, 
retains those protections, and we thank him for his continuing 
commitment to the people of the Arctic Slope and to passing legislation 
to finally permit responsible development within the Coastal Plain of 
ANWR.
   economic self-determination of alaska's north slope alaska natives
    The development of oil and gas resources in our region has fostered 
a stable local tax base that provides local education and community 
improvements that would otherwise be lacking or furnished at great 
expense by the Federal Government and other agencies.
    The development of Native-owned lands has provided a regular stream 
of royalty revenue, which has allowed ASRC to grow its non-royalty 
subsidiaries. Today, royalty revenue is significant, but surprisingly 
to some, royalties are not the largest contributing sector to ASRC's 
bottom line.
    Energy development on Alaska's North Slope has provided the 
wellspring for the growth of economic self-determination of the Natives 
of Alaska's North Slope and the whole state of Alaska. We have formed a 
home-rule government in our own region and diversified and grown ASRC 
into a multi-billion dollar corporation thanks in large part to 
successful exploration and development of Native-owned lands. This is 
the definition of economic self-determination.
    Of course, when Federal laws and policy are used to close lands 
surrounding Native communities to measured resource development, 
indigenous people are reduced to conservation refugees within their own 
homelands. This could be said for any community anywhere. On the North 
Slope, we have watched as Trans-Alaska Pipeline System (TAPS) 
throughput has been reduced to a fraction of its peak, as new 
conservation withdrawals and management plans have been used to 
restrict access both to Federal and to Native-owned resources, and as 
Federal permitting delays continually undermine our resource 
development projects.
    At ASRC, we take the stewardship of our land and resources 
seriously, and we expect the Federal Government to do the same. As the 
Committee considers energy policy in the Arctic, on behalf of Arctic 
Slope Regional Corporation, I urge to look north, go local and empower 
our state to responsibly develop our natural resources. Thank you for 
the opportunity to testify before this Subcommittee.

                                 ______
                                 

  Questions Submitted for the Record by Rep. Gosar to Richard Glenn, 
  Executive Vice President, Lands and Natural Resources, Arctic Slope 
                          Regional Corporation
    Question 1. Did the Obama administration solicit comments from and 
listen to the people who live in communities within the North Slope 
before developing the NPR-A IAP and the ANWR CCP? If so, what feedback 
was provided by the local Alaskan Native communities.

    Answer. Thank you for your question Chairman Gosar, and thank you 
for the opportunity to speak on Onshore Oil and Gas Development in 
Alaska before the Subcommittee on Energy and Mineral Resources on July 
18, 2017.
    The short answer is ``yes,'' but . . . ``-- our input was solicited 
on NPR-A and ANWR but Obama-era Interior officials consistently acted 
against our position.''

    The Obama administration followed policies and procedures in 
soliciting ASRC's and the North Slope communities' input prior to both 
plans. With respect to the NPR-A IAP in particular, ASRC was very 
influential in getting Interior to create the NPR-A working group, 
comprised in part of landowners and municipalities within the NPR-A. 
The problem is, once formed, the working group seemed to have little 
effect on the decisions made by senior Interior officials, who appeared 
to give short shrift to the organizations (Borough and city governments 
as well as the landowning ANCSA corporations within NPR-A) and instead 
followed a management that appeared to be more attentive to the e-NGOs.
    The same can be said for the ANWR CCP. ASRC dutifully contributed 
its position on ANWR to Interior, and the administration did not agree 
with ASRC, and instead strode down a path that seemed to favor 
wilderness status for the 1002 Area of ANWR.
    Overall, the concern ASRC and the local North Slope community 
organizations had with the Obama administration solicitation process 
during the NPR-A IAP and ANWR CCP was the apparent lack of true 
consideration and weight placed upon the comments provided by the local 
people. The Inupiat people have lived and subsisted off of the lands in 
the NPR-A and ANWR for thousands of years, yet our comments for the 
NPR-A IAP and ANWR CCP were not more or less important than that of 
organizations and people that are thousands of miles away and may never 
spend time in the NPR-A or ANWR. As residents and landowners in these 
areas we should have the ability to make decisions on how to manage our 
lands.
    In order to fulfill our commitment to Alaska Native shareholders, 
we need the ability to manage appropriate and responsible development 
of resources that are on lands owned by ASRC and the various Alaska 
Native organizations on the North Slope. We believe that the regulatory 
and permitting roadblocks that have existed in the past should be 
reconsidered and the comments and feedback of the people most impacted 
by development should be given appropriate consideration.
    Attached you will find comments submitted for the NPR-A IAP and the 
ANWR CCP for your consideration. I appreciate the opportunity to 
provide you and the Committee additional information. If you have any 
further questions, please don't hesitate to contact me.
Background
    Arctic Slope Regional Corporation (ASRC) represents approximately 
13,000 Alaska Native Inupiat shareholders with a majority living across 
eight communities on the North Slope of Alaska. Four of these 
communities Atqasuk, Utqiagvik, Nuiqsut, and Wainwright reside in the 
National Petroleum Reserve-Alaska (NPR-A) and one community Kaktovik 
lies within Arctic National Wildlife Refuge (ANWR).
    We at ASRC strongly supported the Secretarial Order No. 3352 made 
by U.S. Secretary of the Interior Ryan Zinke calling for updated 
assessments of recoverable oil and gas reserves on Federal lands across 
the North Slope--including the NPR-A and the 1002 Area of ANWR.
    ASRC owns the subsurface rights to 4.7 million acres across the 
North Slope, and the surface rights to 4.1 million acres. Of that 
total, approximately 320,000 acres is subsurface rights to land that 
lies within the NPR-A. Among the four villages that own land inside the 
NPR-A, Atqasuk Corporation, the village corporation of Atqasuk, owns 
72,954 acres; Olgoonik Corporation, the village corporation of 
Wainwright, owns 170,870 acres; Ukpeagvik Inupiat Corporation, the 
village corporation of Barrow, owns 214,810 acres; and Kuukpik 
Corporation, the village corporation of Nuiqsut, owns 77,013 acres 
(note that Kuukpik lands straddle the boundary of the NPR-A).
    ASRC and Kaktovik Inupiat Corporation (``KIC''), the Native 
Corporation for the Village of Kaktovik, own more than 92,000 
subsurface and surface acres, respectively, in the ANWR Coastal Plain. 
In 1971, ANCSA gave KIC surface rights to 92,160 acres of Federal lands 
adjacent to the Village, originally allowing KIC to select 69,120 of 
these acres within the Range and the remainder outside the Range. In 
1980, ANILCA subsequently allowed KIC to relinquish its selected lands 
outside the Refuge and instead to select the remainder of its 
Corporation lands within the Refuge. ASRC holds the subsurface rights 
to these lands. These lands hold significant potential for onshore oil 
and gas development. However, as a result of Section 1003 of ANILCA, 
developments of these important economic resources remain off limits 
until further act of Congress.

                                 *****

                              ATTACHMENT 1

                 ARCTIC SLOPE REGIONAL CORPORATION,
                                          Anchorage, Alaska

                                                      June 15, 2012

NPR-A IAP/EIS Comments
AECOM Project Office
1835 South Bragaw Street, Suite 490
Anchorage, AK 99508

Re: Draft Integrated Activity Plan/Environmental Impact Statement for 
        the National Petroleum Reserve-Alaska

    Dear IAP/EIS Docket:

    Arctic Slope Regional Corporation (``ASRC'') hereby submits the 
following comments in response to the Draft Integrated Activity Plan/
Environmental Impact Statement (Draft IAP/EIS) for the National 
Petroleum Reserve-Alaska, noticed by the Bureau of Land Management 
(``BLM'') in the Federal Register on March 30, 2012. Notice of 
Availability--Draft Integrated Activity Plan/Environmental Impact 
Statement for the National Petroleum Reserve--Alaska, 77 Fed. Reg. 
19318 (Mar. 30, 2012).
    The BLM's draft IAP/EIS is of critical importance to ASRC and its 
Alaska Native shareholders. The four villages that are within the 
boundaries of the NPR-A are within ASRC's region and represent 
communities that our shareholders live in; as such, ASRC is committed 
both to increasing the economic and shareholder development 
opportunities within our region, and to preserving the Inupiat culture 
and traditions that strengthen our shareholders. We also support 
responsible development of oil and gas resources in Alaska, and 
specifically on the North Slope (including in the NPR-A), and believe 
that Alaska oil and gas must be an integral component of the nation's 
energy strategy.
    We have actively participated in the previous NPR-A Integrated 
Activity Plan processes for both the Northeast and Northwest areas of 
the NPR-A. Based on that experience, and on our continuing 
participation in the myriad land planning processes impacting the North 
Slope and its inhabitants, we believe that the management practices 
currently in place for the Northeast and Northwest planning areas 
represent the appropriate balance between development of natural 
resources that is necessary for the continued wellbeing of our Alaska 
Native shareholders and protection of subsistence and cultural 
resources. We urge the BLM to adopt Alternative D, as discussed more 
fully below, to ensure that all areas of the NPR-A are open to 
exploration and development, subject to the appropriate land management 
practices.
Background and Introduction
    The National Petroleum Reserve in Alaska (NPR-A) was created in 
1923 as one of several national reserves established to ensure 
sufficient petroleum for the Navy and other military operations in 
times of war. In 1976, the Naval Petroleum Reserves Production Act of 
1976 (NPRPA) transferred management of the NPR-A to the Department of 
the Interior.
    The NPRPA states that the NPR-A is to be managed ``in a manner 
consistent with the total energy needs of the Nation'' and, pursuant to 
Section 6505a of the NPRPA, BLM is required to conduct oil and gas 
leasing and development in the NPR-A. The protection of surface values 
is also required, to the extent consistent with exploration and 
development of oil and gas. In 1981, Congress directed BLM to undertake 
``an expeditious program of competitive leasing of oil and gas'' in the 
NPR-A.
    BLM has divided the NPR-A into three planning areas: the Northeast 
(with approximately 4,600,000 acres of public land), the Northwest 
(with approximately 8,800,000 acres of public land), and the South 
(with approximately 9,200,000 acres of public land). BLM instituted a 
planning process for the Northeast area that culminated in issuance of 
a Record of Decision (ROD) in 1998, which was amended by issuance of a 
supplemental ROD in 2008, and a ROD for the Northwest area was issued 
in 2004. Although BLM began a planning process for the South area in 
2005, it discontinued that process in 2007.
    In addition, the NPRPA contains special provisions that apply to 
any exploration or production activities within areas ``designated by 
the Secretary of the Interior containing any significant subsistence, 
recreational, fish and wildlife, or historical or scenic value.'' \1\ 
Based on this authority, three areas within the NPR-A were designated 
in 1977 as ``Special Areas'' in which activities were to ``be conducted 
in a manner which will assure the maximum protection of such surface 
values to the extent consistent with the requirements of this Act for 
the exploration of the reserve.'' \2\
---------------------------------------------------------------------------
    \1\ P.L. 96-514, 42 USC Sec. 6504(a).
    \2\ 42 Fed. Reg. 28,723 (June 2, 1977).
---------------------------------------------------------------------------
    The Teshekpuk Lake Special Area was created to protect migratory 
waterfowl and shorebirds. The Colville River Special Area was created 
to protect the arctic peregrine falcon, which at that time was an 
endangered species. The Utukok River Uplands Special Area was created 
to protect habitat for the Western Arctic Caribou Herd.
    The Teshekpuk Lake and Colville River Special Areas in the 
Northeast NPR-A were enlarged in the ROD that was issued in 1998 and 
supplemented in 2008, and the 2004 ROD for the Northwest NPR-A created 
the Kasegaluk Lagoon Special Area.
    In July, 2010, the BLM initiated a new planning process for the 
entire NPR-A, including the South area, and indicated its intent to 
develop and publish a Draft IAP/EIS for NPR-A. The stated intent was to 
revisit the appropriate management of all BLM-managed lands in the NPR-
A in light of new information (since publication of the 1998/2008 and 
2004 RODs for the North and Northwest NPR-A) about surface and 
subsurface resources and in a manner consistent with the NPRPA. This 
process included a scoping process that culminated in the issuance of 
the draft IAP/EIS.
    Any and all BLM decisions that impact the NPR-A, including the 
BLM's draft IAP/EIS, are of critical importance to ASRC and its Alaska 
Native shareholders. ASRC is the Alaska Native Corporation formed under 
the Alaska Native Claims Settlement Act (``ANCSA'') that encompasses 
the entire North Slope of Alaska. ASRC has a growing shareholder 
population of approximately 11,000, and represents eight villages on 
the North Slope: four that are within the boundaries of the NPR-A 
(Atqasuk, Barrow, Nuiqsut and Wainwright), and four that are not 
(Anaktuvuk Pass, Kaktovik, Point Hope and Point Lay).
    ASRC owns approximately five million acres of land on Alaska's 
North Slope, conveyed to the corporation under ANCSA as a settlement of 
aboriginal land claims. Under the express terms of both ANCSA and 
ANILCA, the unique character of these lands, founded in federal Indian 
law and the most significant Native claims settlement in U.S. history, 
must be recognized by the Congress and the Federal government in making 
any land management decisions. In the unique framework created by ANCSA 
and ANILCA, Congress expected that regional corporations, including 
ASRC, would be responsible for developing the economic infrastructure, 
including management of the abundant natural resources on and under the 
lands conveyed to them, to provide for the economic well-being of 
Alaska Natives.
    ASRC is committed both to increasing the economic and shareholder 
development opportunities within our region, and to preserving the 
Inupiat culture and traditions that strengthen both our shareholders 
and ASRC. A founding principle of ASRC is respect for the Inupiat 
heritage. A portion of our revenues is invested into supporting 
initiatives that aim to promote healthy communities and sustainable 
economies. By adhering to the traditional values of protecting the 
land, the environment and the culture of the Inupiat, ASRC has 
successfully adapted and prospered in an ever-changing economic 
climate.
    ASRC lands are located in areas that either have known resources or 
are highly prospective for oil, gas, coal, and base metal sulfides. 
ASRC remains committed to fulfilling its obligations to Alaska Natives, 
including its shareholders, by developing these resources and bringing 
them to market in a manner that respects Inupiat subsistence values 
while ensuring proper care of the environment, habitat, and wildlife.
    ASRC owns the subsurface rights to 4.7 million acres across the 
North Slope, and the surface rights to 4.1 million acres. Of that 
total, approximately 320,000 acres is subsurface rights to land that 
lies within the NPR-A. Among the four villages that own land inside the 
NPR-A, Atqasuk Corporation, the village corporation of Atqasuk, owns 
72,954 acres; Olgoonik Corporation, the village corporation of 
Wainwright, owns 170,870 acres; Ukpeagvik Inupiat Corporation, the 
village corporation of Barrow, owns 214,810 acres; and Kuukpik 
Corporation, the village corporation of Nuiqsut, owns 77,013 acres 
(note that Kuukpik lands straddle the boundary of the NPR-A).
    In order to fulfill our commitment to our Alaska Native 
shareholders, we not only need the ability to manage appropriate 
development of resources that are on lands owned by ASRC and the 
various Alaska Native organizations on the North Slope discussed above; 
we also need to ensure that appropriate development can occur on 
publicly owned land that is managed by the BLM, including the 22.6 
million acres within the NPR-A that is managed by the BLM. This land, 
similar to other publicly-owned and federally managed land in other 
areas of Alaska, is increasingly subject to policies and decisions 
driven by the federal government that may impact the ability of ASRC to 
fulfill its mission, and it is critical that Alaska Native corporations 
have an opportunity to meaningfully participate in the development and 
implementation of polices that impact our ability to fulfill our 
mission to our shareholders. This is especially true with respect to 
lands within the three planning areas in the NPR-A.
    In addition to creating important jobs for economically 
disadvantaged Alaska Natives, responsible oil and gas development on 
the North Slope and offshore would play an integral role in providing a 
long term, secure supply of energy to the nation. It would also help 
ensure sufficient future flow of product through the Trans-Alaska 
Pipeline System, which is now operating at only one-third of its 
original capacity. Advances in technology lead us to believe that the 
abundant energy resources available, both onshore and offshore, in 
Alaska can be developed safely and responsibly, and in a manner that 
protects cultural and subsistence resources.
    ASRC is owned by 11,000 Inupiat Eskimo shareholders, and 
approximately 40% of our shareholders reside in the villages of Barrow, 
Wainwright, Atqasuk and Nuiqsut; all of those communities are within 
the boundaries of NPR-A. Many of our shareholders that reside within 
those boundaries use the NPR-A for regular subsistence activities.
    In the DEIS, BLM appears to diminish the presence of human 
habitation within the boundaries of NPR-A by our shareholders and 
residents of the North Slope. The information contained in the DEIS 
with respect to our entitlements and holdings are undervalued by BLM or 
simply inaccurate. For example, in Volume 1, Section 3.4, Table 3-21, 
page 336, BLM references that Native corporation surface estate is 
equal to 215,450 acres. However, in Volume 1, Section 3.4, Table 3-22, 
page 337, BLM correctly describes the Village corporation entitlements 
of 705,864 acres. Since the Native Corporation surface estates and the 
Village Corporation entitlements are essentially one and the same we 
find Volume 1, Section 3.4, Table 3-21, page 336 to be misleading. This 
distorts the true ownership structure and gives the public the 
impression that very little village corporation surface estate is 
affected by the BLM's management plan.
    Maps 2-1, 2-2, 2-3 and 2-4 in Volume 5 reflect most of the Native 
Corporation lands within NPR-A have either a Patent or are in Interim 
Conveyance status, and are, therefore, aligned with the information 
contained in Volume 1, Section 3.4, Table 3-22, Page 337. The 
information supplied by BLM in the aforementioned maps within Volume 5 
clearly illustrate that the numbers contained in Volume 1, Section 3.4, 
Table 3-21, page 336 are misleading and therefore incorrect.
    BLM also notes that there are 326 Native Allotments within the NPR-
A that equal to 30,100 acres and reflects that number as ``. . . 
approximately 0.13 percent.'' Our shareholders and Native allotment 
owners utilize more than 0.13 percent of the NPR-A lands for 
subsistence and recreation, as suggested by BLM.
    While BLM acknowledges that in the DEIS they do not seem to 
acknowledge to the largest extent possible that our people were the 
first inhabitants of the area now called the NPR-A and for us to 
continue our existence on the North Slope we need not only our 
subsistence resources protected but also our economic resources need to 
be protected and enhanced. Do not reduce the Inupiat history and 
presence within the NPR-A through this document.
    BLM has failed to adequately illustrate the true existence of our 
people and our relationship to the lands within the boundaries of the 
NPR-A. Inupiat were the first inhabitants of the North Slope, including 
the federally recognized boundaries of the NPR-A. Attempts to minimize 
the relationship our people have with this area are disappointing and 
misleading. It is essential that we continue to protect and balance the 
subsistence resources and needs of our people while preserving our 
opportunities for economic development. This document attempts to 
strike at the core of our identity as a people and reduce our Inupiat 
history and presence within the NPR-A to simple pages in this document.

    With this background, we offer the following specific comments with 
respect to the Draft IAP/EIS.

    I. Integrity of the Process. As we indicated in our two letters 
requesting that the Bureau extend the time for commenting on Draft IAP/
EIS, this NPR-A planning process will directly affect the lives, 
customs, and lifestyles of our Alaska Native shareholders, and other 
stakeholders on the North Slope, more than anyone else. It is critical 
that the planning process be transparent and offer the opportunity for 
our organizations to provide the type of meaningful input that is 
called for by statute, regulation and good public policy with respect 
to such an important process.
    While we understand and support BLM's desire to complete the IAP/
EIS in a timely fashion, especially as it is a critical component of 
the broader energy development strategy for Alaska and the nation, we 
are concerned that the Bureau's efforts to push this process through 
has compromised the ability of organizations that represent the 
interests of the Alaska Natives that will be most directly impacted to 
provide the meaningful input that is so critical to the process. This 
is especially important in the context of Section 810 of ANILCA and the 
specific direction given by Congress with respect to decisions 
involving public lands and the impact of those decisions on Alaska 
Natives' subsistence purposes and needs.
    In order to provide meaningful input and commentary on the IAP/EIS, 
we need to understand how BLM arrived at the planning strategies and 
positions that are set forth in the IAP/EIS. One of the most productive 
means of acquiring that understanding is through the public meetings at 
which BLM presents this information and is available for questions and 
answers. In this case, we acknowledge that BLM staff held eight public 
hearings in North Slope villages, and that it will hold another in 
Point Lay on June 5, 2012, to provide an opportunity to comment to 
Point Lay residents who were engaged in subsistence whaling activities 
during the previously scheduled meeting.
    We note, however, that BLM convened the first of these public 
meetings on May 14, 2012, some forty-five days into the public comment 
period. By scheduling these meetings at the end of the public comment 
period instead of at the beginning, affected villages and Alaska 
Natives have not been able to be as informed on the document and the 
process as they need to be to have meaningful participation in the 
process, especially with respect to the potential impacts of each of 
the alternatives (including cumulative impacts under each of the 
alternatives) on subsistence activities.
    This problem is exacerbated by the fact that the Draft IAP/EIS and 
supporting materials are voluminous, dense, and very difficult to use 
and work through, especially in the absence of discussions with the BLM 
staff--through meetings held earlier in the process--that could have 
provided more of a foundation for understanding the process and 
substantive decisions under consideration.
    Two specific examples are worth mentioning. First, in developing 
the RODs that were developed for the Northeast and Northwest planning 
areas, BLM worked closely with stakeholders to develop a strategic 
framework and approach that relied on ``Required Operating procedures'' 
(ROPs) as tools for managing development in a manner that was 
protective of the lands and resources in areas that were subject to 
development. These ROPs, which set forth terms, conditions and 
mitigating restrictions on development activities, were developed 
through a process that was designed to ensure that the ROPs were 
specific to the operator and to the development being undertaken.
    In this Draft IAP/EIS, the Bureau uses the terms ROPs and ``best 
management practices'' (BMPs) throughout the document; in some cases 
they appear to be used interchangeably, whereas in other areas it 
appears that they mean something very different. Specifically, in many 
places BMPs appear to apply across the entire NPR-A and to all 
operators in all areas, as opposed to the operator-specific nature of 
the ROPs. It is not clear at all from the documents, however, whether 
the Bureau intends that the terms be used interchangeably (and that 
they refer to the same procedures/instruments), or if in fact the 
Bureau is actually changing the existing ROP-based framework.
    We have been unable to determine how the BMP framework envisioned 
in the Draft IAP/EIS changes or does not change the current framework, 
including specific ROPs currently in place. If it is intended to change 
current ROPs, we submit that (a) BLM has not made clear enough how the 
ROPs are being changed, which is critical for developers and other 
stakeholders to understand; and (b) BLM has not identified new 
information or changed circumstances that support the need for a change 
away from the current ROP-based system, which we believe is working 
very well.
    Second, we are concerned that the process as envisioned by BLM will 
not give adequate time or opportunity for stakeholders to evaluate and 
comment on the Bureau's selection of the Preferred Alternative. As an 
initial matter, the Draft IAP/EIS does not identify a ``preferred 
alternative'' nor does it include any discussion regarding the Bureau's 
thinking or preliminary position on any of the four alternatives, so it 
is very difficult to know where our comments should be focused.
    In addition, we understand that the Bureau anticipates issuing a 
final IAP/EIS that will include the selected Preferred Alternative, but 
that it also expects to adopt the Preferred Alternative without a 
reasonable opportunity for stakeholders to review the decision 
documents and comment on the selected Preferred Alternative. We believe 
that it is critical to that the Bureau not only solicit comments on 
each of the alternatives that are under consideration (as it has done 
with publication of the Draft IAP/EIS), but also that stakeholders be 
given an opportunity to evaluate and comment on the selection of the 
Preferred Alternative and the rationale pursuant to which the Preferred 
Alternative was selected.
    We note that in past planning exercises, stakeholders were given 
the opportunity to submit comments on the Final IAP/EIS, including 
selection of the Preferred Alternative. In fact, for the first 
amendment to the Northeast Planning Area IAP/EIS, we understand that 
comments/challenges to the Preferred Alternative that were filed with 
the BLM after issuance of the final IAP/EIS document but before 
issuance of the ROD resulted in changes to the IAP/EIS that were made 
prior to issuance of the ROD, which then included a revised Preferred 
Alternative. We understand that the Bureau is committed only to meeting 
the minimum procedural requirements under NEPA (not making a decision 
on the plan to adopt the Preferred Alternative until at least 30 days 
after issuance of the Final IAP/EIS). If this is the Bureau's plan, we 
request that it revise the plan and commit to more open and transparent 
process that allows for a formal notice and comment period during which 
stakeholders can comment on BLM's selected Preferred Alternative and 
the rationale for that selection.
    We are also particularly concerned that in the discussion of 
``cumulative effects'' in Chapter 4 of the Draft IAP/EIS the Bureau has 
selectively characterized ``comments and concerns . . . voiced by North 
Slope Inupiat'' in a manner that is, at best, incomplete and dated and 
at worst, misleading. For example, we have reviewed table 4-41, which 
is titled ``Summary of select North Slope concerns/information 
presented at public meetings'' (emphasis added).\3\ As an initial 
matter, we question whether publishing ``selected'' comments is 
appropriate in the context of attempting to characterize the views of 
``the North Slope Inupiat.'' Leaving aside the issue of whether it is 
even appropriate to try to ascribe one set of views to a group of 
people who have as wide a variety of viewpoints on these issues as 
``North Slope Inupiat'' have, it appears to us that these comments were 
``selected'' because they all steer the process toward what appears to 
be a desired outcome--characterizing the North Slope Inupiat as being 
opposed to oil and gas development.
---------------------------------------------------------------------------
    \3\ Draft IAP/EIS, at 221.
---------------------------------------------------------------------------
    Without detracting from our concerns about the propriety of trying 
to make this broad characterization, we also question whether these 
comments are in any way representative of current attitudes of North 
Slope Inupiat regarding oil and gas development. The ``selected'' 
comments date as far back as 1976, and the most recent is from 2003. Of 
the 36 comments that were included in Table 4-41, seven (7) were from 
the 1970's, eight (8) from the 1980's, and seven (7) from the 1990's; 
in sum, over 60% of the selected comments were from the pre-2000 era. 
We know from experience that there have been many more recent public 
meetings/discussions on oil and gas development on the Alaska and the 
North Slope in general, and in the NPR-A specifically, and associated 
impacts on subsistence, and that many North Slope Inupiat have 
presented their views/comments/concerns in those fora. If BLM insists 
on presenting this type of information, we suggest that the Bureau 
should provide summaries of comments/concerns made at more current 
meetings in order to better characterize up-to-date attitudes and 
opinions of the North Slope Inupiat toward oil and gas development.
    We also take issue with the manner in which the Bureau 
characterizes these comments. The second column in the Table lists what 
the Bureau calls ``effects'' of activities on resource categories as 
identified by the commenter. As best we can determine, however, there 
is no evidence or scientific evaluation or determination that the noted 
conditions were in fact the effect of--caused by--the cited oil and gas 
activities. We suggest that a more accurate way to characterize these 
conditions is to call them ``observation of conditions and locations'' 
in the table, so that reviewers of the document are not misled into 
thinking that the observations have actually been documented as having 
been caused by, or traced back to, the cited oil and gas activities.
    Finally, we have also found it difficult to assess how the 
management strategies established in each of the four alternatives 
would impact activities and management of private land within the NPR-
A. In fact, we could not find a list or any other means of identifying 
the private landowners within the NPR-A, which seems to us to be an 
essential element in fulfilling the Bureau's consultation obligations 
under Section 810 of ANILCA as well as the National Environmental 
Policy Act.
    II. Do Not Need a New IAP/EIS for All NPR-A Planning Areas, but 
Support One IAP Covering All Planning Areas, Including the South Area. 
ASRC has participated in each of the planning processes that have been 
undertaken with respect to the planning areas in the NPR-A, including 
the designation of special areas within the NPR-A. That includes three 
different planning processes and associated NEPA environmental impact 
statement processes for the Northeast and Northwest that ultimately 
resulted in the currently-effective RODs for these two areas, as well 
as the planning process for the South area that was abandoned prior to 
issuance of a ROD for that area.
    Based on our experience in these various processes, and accounting 
for the exploration and development activities that have occurred in 
the NPR-A since 2000 (undertaken by ConocoPhillips Alaska Inc., British 
Petroleum, Anadarko Petroleum Corp., Total E&P, Inc., and FEX, L.P., 
among others), we believe that the land management strategies and 
practices that were developed and that have been implemented (including 
Lease Stipulations, ROPs, etc.) are sufficiently robust to achieve the 
balance between the Congressional mandate that oil and gas exploration 
and development occur in the NPR-A and the need to protect the 
resources, including resources that are critical for our subsistence 
lifestyle.
    These strategies and practices were heavily negotiated during these 
processes, and we do not believe that any of the ``changed 
circumstances'' cited by the Bureau in the Draft IAP/EIS \4\ require 
that these strategies and practices be revisited, or that there is the 
need for additional stipulations, ROPs, or new BMPs above and beyond 
those currently in place. Several of the factors cited in the Draft 
IAP/EIS as ``changed circumstances'' that trigger the need for a new 
planning strategy and process are, in fact, statistics that are 
constantly changing--oil and gas prices, and estimates of technically 
recoverable oil and gas reserves, for example. Because these and other 
factors are constantly changing, it does not make sense to base a 
decision to change a fundamental planning process on the fact that they 
have changed. To do so would result in a planning process that was 
constantly being revised, and, under such a scenario, no development 
would ever take place because developers would never know what the 
applicable ground rules for development were going to be.
---------------------------------------------------------------------------
    \4\ Draft IAP/EIS, Executive Summary at 2-4.
---------------------------------------------------------------------------
    We also believe that it is both appropriate and necessary that the 
NPR-A south planning area be included in the preferred alternative. For 
all of the reasons stated above, it is essential that the master plan 
for land management in the NPR-A cover all publicly managed land in the 
NPR-A, and that the Bureau not simply fall back on the historical 
precedent where the Northeast and Northwest areas are included but the 
south area is not. We suggest, however, that while it is critical that 
the south area be included, it may be appropriate to defer leasing in 
the south area for some period of time, up to twenty years. We 
understand that there is little current interest in exploration/
development of that area, and believe that it may therefore be 
appropriate to defer leasing in that area.
    Of the four alternatives discussed in the Draft IAP/EIS, we support 
the scope set forth in Alternative D, pursuant to which all NPR-A lands 
would be made available for oil and gas leasing, although leasing in 
the lands currently deferred from leasing (approximately 1.57 million 
acres in northwestern NPR-A and approximately 430,000 acres north and 
east of Teshekpuk Lake) would not be offered for lease until the 
deferrals have expired. While we do not necessarily agree with the 
Bureau that there are conservation needs in these areas that need to be 
protected from oil and gas development for the duration of the current 
deferral periods, we would not object to the retention of the current 
deferral periods, with no extensions, provided that all other NPR-A 
lands were made available under this alternative.
    We believe that the performance-based stipulations, ROPs, and study 
and monitoring requirements that are currently in place for the 
Northeast and Northwest planning areas, including the protections built 
into the program for lands with particularly high surface resource 
values, are sufficient and should continue to be applied in those 
areas, and that they should be easily adopted for the South planning 
area as well. As noted earlier in these comments, it is very difficult 
to determine whether the ROPs that are currently in effect for the 
Northeast and Northwest Planning Areas are the same as, similar to, or 
different from the universe of ROPs and BMPs set forth in the draft 
IAP/EIS. We therefore suggest that unless the Bureau grants more time 
for analysis and comment (which would allow us to work with BLM staff 
to thoroughly understand the similarities/differences and therefore 
provide substantive comments), we suggest that the Bureau simply adopt 
those practices verbatim from the IAP/EIS for those two areas and apply 
them across the entire NPR-A as part of the Preferred Alternative.
    We also concur that it is not necessary or appropriate to apply 
several stipulations common to the other three alternatives to protect 
biological resources near Teshekpuk Lake, as discussed in Section 2.3.4 
of the Draft IAP/EIS.\5\
---------------------------------------------------------------------------
    \5\ Draft IAP/EIS, at 22.
---------------------------------------------------------------------------
    In summary, we would recommend that the preferred alternative adopt 
the scope as set forth in Alternative D, and that its apply the 
currently effective management practices that are in place for the 
Northeast and Northwest areas across the entire NPR-A, and not include 
additional or modified practices.

    III. Oppose Designation of New Special Areas, Conservation Areas, 
or Wild and Scenic River Designations. We do not support any expansion 
of existing Special Areas, any designation of new Special Areas or 
conservation areas, or any recommendations to Congress regarding 
designations of any Wild and Scenic Rivers. We are concerned that any 
expansion of existing areas or designation of new areas (a) is not 
warranted by current conditions; (b) could have adverse impacts on 
usage levels of those areas; (c) could have unanticipated impacts on 
development opportunities on private lands adjacent to or near such 
areas; and/or (d) could serve as the first step to greater restrictions 
in the future, despite the fact that they do not result in actual 
current restrictions.
    We concur with the Bureau's determination that evaluating areas 
within the NPR-A for suitability for Wilderness designation is beyond 
the scope of this planning effort.\6\ We also agree that evaluating 
lands within the NPR-A for potential designation as Wild Lands is also 
not appropriate or within the scope of the planning process.\7\
---------------------------------------------------------------------------
    \6\ Id., at 30.
    \7\ Id.
---------------------------------------------------------------------------
    In the Draft IAP/EIS, BLM discusses the issue of determining Wild 
and Scenic River suitability in the Northeast and Northwest planned 
portions of NPR-A.\8\ As part of that discussion BLM recognizes the 
efforts undertaken with respect to Wild and Scenic River eligibility in 
the previous planning processes, noting that while it found 22 rivers 
to be ``eligible'' for designation, it ``was able to provide protection 
for all eligible rivers through methods other than Wild and Scenic 
River designation.'' \9\ As part of this current planning process, BLM 
found:
---------------------------------------------------------------------------
    \8\ Id., at 31.
    \9\ Id.

    No changes in factors relevant to Wild and Scenic River 
---------------------------------------------------------------------------
designation;

    That BLM remains able to provide protection for these streams 
through methods other than Wild and Scenic River designation; and

    That there is no new information that suggests that the prior 
conclusions in the 1998 Northeast and 2003 Northwest IAP/EIS and their 
respective record of decisions (1998 and 2004) should be reconsidered 
or modified with respect to Wild and Scenic River suitability.\10\
---------------------------------------------------------------------------
    \10\ Id.

    We are concerned that Alternatives B and C both contain 
recommendations for congressional designation of areas for inclusion in 
the National Wild and Scenic Rivers System in the southern portion of 
the NPR-A, despite the fact that the Bureau has acknowledged that the 
management system currently in place in the Northeast and Northwest 
planning areas are sufficiently robust to provide adequate protection 
of rivers suitable for designation without having to resort to actual 
designation. The areas discussed for potential designation in 
Alternative B are portions of the Colville River, Nigu River, Etivluk 
River, Ipnavik River, Kuna River, Kiligwa River, Nuka River, Awuna 
River, Kokolik River, and Utukok River, and Driftwood and Carbon 
creeks; in Alternative C they include portion of the Colville River, 
the Utukok River (within the NPR-A), and the Kiligwa River.
    We submit that if the BLM adopts/applies the currently effective 
management practices that are in place for the Northeast and Northwest 
areas across the entire NPR-A, including the areas where these rivers 
are located, it must reach the same conclusions as it did with respect 
to the 22 rivers in the Northeast and Northwest planning areas--that 
designation is not necessary under current management practices.
    In addition, we are concerned that designation of any areas for 
inclusion in the National Wild and Scenic Rivers System will actually 
have the exact opposite effect of conservation on designated area(s). 
The areas discussed for potential designation in Alternative and in 
Alternative C are already `wild' and have been subject to relatively 
little impact from various uses of the water bodies. Based on our 
experience in Alaska, and our understanding of similar experience 
elsewhere, designating these areas as Wild and Scenic River areas and 
giving them scenic status will only increase their usage, and would 
actually result in a greater impact.
    Given the geographical location of the areas discussed for 
potential designation in Alternatives B and C, we are also concerned 
that any such designation could have the potential to create numerous 
north-south barriers to any future infrastructure across the NPR-A, and 
we do not believe that the Bureau has adequately assessed the potential 
impacts of such barriers.
    We are also concerned that, with respect to expansion of existing 
Special Area designations, or the designation of new Special Areas or 
Wild and Scenic Rivers, such expansion or new designation could have 
the effect of foreclosing substantial economic opportunities associated 
with the potential for future development of the NPR-A's enormous 
projected onshore oil and gas reserves, as well as potential impacts on 
the ability to develop infrastructure for managing recoverable oil and 
gas in the Beaufort and Chukchi Seas.
    Responsible oil and gas development on the North Slope and offshore 
would provide a safe and secure source of energy to the nation, create 
important jobs for economically disadvantaged Alaska Native people and 
others throughout the country, and help ensure future flows through the 
Trans-Alaska Pipeline System, which is now operating at only one-third 
of its original capacity. We remind BLM that the NPRPA requires that 
the NPR-A be managed ``in a manner consistent with the total energy 
needs of the Nation,'' and submit that even though we as a nation lack 
a comprehensive energy strategy, it is indisputable that discovery and 
development of oil and gas resources in the Arctic, including in the 
NPR-A, is desperately needed to meet the ``total energy needs'' of the 
country.
    With advances in technology, it is possible to develop these oil 
and gas reserves and allow access to much-needed energy resources with 
minimal land disturbance and without significant disturbance to 
wildlife. Technological advances have significantly reduced the 
``footprint'' of oil and gas development. We continue to believe that 
responsible resource development and appropriate management of 
resources, including subsistence resources, are not mutually exclusive 
goals.
    As a result, we oppose any designations that would erect additional 
barriers to responsible oil and gas exploration in the NPR-A where 
there is no demonstrated need for such barriers. This extends to 
potential barriers to exploration and development that occur not on 
BLM-managed land, but on privately-owned land that is potentially 
impacted by such designations.
    For example, we are concerned with the size of the `New Special' 
areas that are recommended in Alternatives B and C of the Draft IAP/
EIS. Two of those areas--Peard Bay and Kaselaguk Lagoon Special Areas--
almost surround existing private land owned by the Olgoonik Corporation 
(around Wainwright) and the Atqasuk Corporation (around Atqasuk). If 
those areas were designated as discussed in the alternatives, any 
protections that are triggered for Special Areas would have a 
significant impact on the ability of the two Native Corporations to 
undertake the type of exploration and development of the resources 
located on their land to provide for the wellbeing of the Alaska 
Natives that live in those communities.
    We are also more generally concerned with the manner in which the 
Draft IAP/EIS expands upon the concept of ``Special Areas.'' For 
example, while the Department of Interior originally established the 
Teshekpuk Lake Special Area in 1977, that designation in and of itself 
did not contain any restrictions on oil and gas development. Subsequent 
efforts to restrict oil and gas development (and other activities) in 
the Teshekpuk Lake Special Area were based primarily on a vague 
perceived need to protect migratory waterfowl, and were the result of a 
negotiated tradeoff to allow oil and gas development in others areas of 
the NPR-A.
    We note that in the Draft IAP/EIS, BLM cites as a major rationale 
for expanding the Teshekpuk Lake Special Area (in Alternatives B and C) 
the need to protect important caribou calving areas. We are concerned 
that there are no objective criteria or guideposts that are being (or 
that can be) applied to determine what should be considered a ``Special 
Area'' subject to restrictions on development and other activities. In 
the absence of any governing criteria or established process, and in 
light of the impacts of designation discussed elsewhere in these 
comments, we suggest that it is not appropriate to create new Special 
Areas or expand existing Special Areas in the context of this planning 
process.
    We acknowledge that while new Special Area designations may not 
automatically trigger any additional proscribed management efforts or 
restrictions on activities within designated Special Areas, there is 
nevertheless an impact that results from designation. Such designations 
do create perceptions--simply drawing an outline around the area on a 
map gives the impression that the area has been selected as a 
conservation unit, and that it is or will be subject to current or 
future development restrictions, regardless of the fact that 
designation does not automatically trigger any such restriction.
    It is also our experience that any such designation is inevitably 
only the first step toward future restrictions and conditions that 
could impact both subsistence activities as well as exploration and 
development of natural resources. This is especially troublesome in 
light of the lack of governing principles or established criteria for 
establishing or designating new Special Areas or expanding existing 
special Areas.
    Any degree of uncertainty regarding future restrictions that would 
be triggered by such designation is in many instances sufficient to 
drive away parties that may have been interested in partnering with 
corporations and regional corporations like ASRC to responsibly explore 
and develop resources, particularly oil and gas resources, that would 
benefit both the Nation and the local Alaska Native populations that 
rely so heavily on such development. For this reason, we oppose any 
further extension of existing Special Areas or the designation of any 
new Special Areas in the NPR-A.
Conclusion
    ASRC appreciates this opportunity to provide meaningful input to 
BLM as it continues to develop land management plans for the NPR-A. We 
urge the Bureau to be mindful of the fact that the NPR-A is, and has 
long been, the home of Alaska Native people who continue to maintain a 
strong connection to the land that is fundamental to our very way of 
life. In addition to the substantial value that our people (and the 
broader Alaska Native community) will draw from responsible development 
of the NPR-A's bountiful oil and gas resources, the land and its 
resources are essential to our subsistence way of life. As it develops 
the final IAP/EIS and Record of Decision, we urge BLM to fulfill its 
commitment to an ongoing, meaningful partnership with ASRC and the 
broader Alaska Native community, and not to take any action that could 
deprive our people of access to and use of these resources or otherwise 
adversely impact the culture and heritage that lies at the very 
foundation of who we are.
    Thank you for your consideration of this request.

            Sincerely,

                                              Richard Glenn
                                         Executive Vice-President  
                                        Lands and Natural Resources

                                 *****

                              ATTACHMENT 2

                 ARCTIC SLOPE REGIONAL CORPORATION,
                                          Anchorage, Alaska

                                                   October 24, 2012

Secretary Salazar
Department of Interior

Re: Preferred Alternative B-2 for the Draft Integrated Activity Plan/
        Environmental Impact statement for the National Petroleum 
        Reserve-Alaska

    Dear Secretary Salazar:

    Arctic Slope Regional Corporation (``ASRC'') is submitting this 
letter in response to the Department of Interior's public announcement 
on August 13, 2012 on the proposed Preferred Alternative B-2 for the 
NPR-A Integrated Activity Plan/Environmental Impact Statement. ASRC is 
both surprised and frustrated by the broad-brush changes that are 
reflected in the Preferred Alternative B-2 and the resulting impacts on 
activities in NPR-A.
    We have recently met with several representatives from the 
Department of Interior (the ``Department'') to present our comments and 
concerns about Preferred Alternative B-2, and we asked that the 
Department reconsider its current position. It is apparent to us, 
however, that the Bureau of Land Management (``BLM'') has chosen to 
side with the interests of environmental groups outside our region 
rather than listening to and taking into account the viewpoint of the 
people of the North Slope who are most directly impacted by any 
decision regarding the NPR-A. This is not only wrong from a public 
policy perspective; it is also in direct contradiction to the pledge of 
the Obama administration to more fully engage with Native groups on 
issues that directly impact our way of life.
    We are very frustrated with the lack of meaningful consultation 
during the IAP/EIS process with tribal and other Native groups. This 
lack of consultation is appalling, especially in light of the Obama 
administration's stated policy requiring that agencies have more 
meaningful and substantive Native engagement and consultation. 
Unfortunately, it appears that the Department has decided to continue 
its old practice of ``picking and choosing'' what types of consultation 
it wants to participate in and with whom it wants to consult. As a 
result, it appears that consultation only involves those entities whose 
constituents already support the Department's position on an issue.
    We find it ironic that while the Department prides itself on its 
outreach to Native groups, and has stated publicly that enhancing 
consultation is supposedly an administration priority, our experience 
is that the past administration did a much better job of this. Through 
extensive consultation and collaboration with all of the stakeholders 
in NPR-A, prior administrations presented a ``balanced plan'' that the 
parties agreed to. The BLM should revisit its decision and again 
undertake a balanced effort to select a preferred alternative that 
takes into account input from all interested parties.
    ASRC has participated in all four of the NPRA IAP/EIS processes 
since 1999, and as we stated during each of these efforts, the results 
of the IAP/EIS are of critical importance to ASRC and its Alaska Native 
shareholders. The four villages within the boundaries of the NPR-A--
Wainwright, Barrow, Atqasuk and Nuiqsut--are all in ASRC's region. Our 
shareholders live in these villages, and ASRC is committed to 
fulfilling its congressionally-mandated mission to increase economic 
and shareholder development opportunities and preserve Inupiat culture 
and traditions. Accordingly, we support safe and responsible 
development of oil and gas resources in Alaska and specifically on the 
North Slope (including in the NPR-A). We also believe that Alaska oil 
and gas must be an integral component of the nation's energy strategy.
    Based on our experience and participation in the previous NPR-A IAP 
processes for both the northeast and northwest areas of the NPR-A, and 
on our continuing participation in the myriad land planning processes 
that impact the North Slope and its inhabitants, we believe that the 
management practices that are currently in place for the northeast and 
northwest planning areas represent the appropriate balance between 
development of natural resources that is necessary for the continued 
well-being of our Alaska Native shareholders and protection of 
subsistence and cultural resources.
    We specifically take issue with the new areas identified as 
``Unavailable to Leasing'' and ``Unavailable to Lease and no new non-
subsistence infrastructure'' in the Preferred B2 Alternative. Under the 
IAP/EIS process, the BLM has stated numerous times that any changes to 
the NPR-A IAP/EIS would be based on sound science. We do not believe 
that there is any sound science, presented in the March NPR-A IAP/EIS 
or otherwise in the administrative record, that supports designating 
several areas as off-limits to leasing in the Preferred B-2 
Alternative. For instance, four townships of land south of Teshekpuk 
Lake have been added to the ``Unavailable to Leasing'' category in the 
Preferred Alternative; we cannot find any ecological or biological 
significance assigned to this area in the draft document. The inclusion 
of such a large area also seems arbitrary; there was already a six-mile 
buffer around Teshekpuk Lake that was designated as being unavailable 
to leasing. We also do not believe that the large areas west of 
Teshekpuk Lake to Dease Inlet should be categorized as ``Unavailable to 
Leasing.'' While this region in general may have a higher habitat value 
for a variety of species when the various species' habitats are mapped 
on top of this area, we believe that the BLM could more responsibly use 
a focused approach in this region that would be similar to the approach 
it utilized in prior NW NPR-A IAP/EIS and the prior NE NPR-A IAP/EIS.
    We also note that the practice of ``mapping'' species and habitats, 
including subsistence resources, is a temporal exercise. Species and 
habitats shift over time, sometimes dramatically, and our experience on 
the North Slope is that the movement of these resources can render the 
results of a mapping exercise moot over a relatively short period of 
time. It is critical, therefore, to ensure that the designation of any 
area that is based on mapping of current resources is thoroughly vetted 
and that there are sound scientific bases for designating those areas.
    We suggest that while it is critical that the south area be 
included as part of this planning process, it may be appropriate to 
defer the area from leasing for twenty years if the science suggests 
that deferral would be appropriate. While we understand that there is 
little current interest in exploration/development of that area, that 
may not always be the case, as advancements in technology have 
demonstrated time and again that what may not be possible today may be 
very possible in the future. Therefore, we suggest that it would be 
appropriate to defer leasing in this area, if warranted by sound 
science, for a term of twenty years.
    We believe that responsible oil and gas development on the North 
Slope and offshore allows ASRC to meet its congressionally-mandated 
obligations to its shareholders. We continue to believe that 
responsible resource development and appropriate management of 
resources, including subsistence resources, are not mutually exclusive 
goals. Responsible development also provides a safe and secure source 
of energy to the nation, creates important jobs, and helps ensure 
future flows through the Trans-Alaska Pipeline System. We remind BLM 
that the NPR-A is to be managed ``in a manner consistent with the total 
energy needs of the Nation,'' and we respectfully submit that discovery 
and development of oil and gas resources in the Arctic, including in 
the NPR-A, is desperately needed to meet the ``total energy needs'' of 
the country.
    In conclusion, we oppose any designations that would erect 
additional barriers to responsible oil and gas exploration in the NPR-A 
where there is no demonstrated need or scientific basis for such 
barriers. Our opposition extends to potential barriers to exploration 
and development that occur not on BLM-managed land, but on privately-
owned land that is potentially impacted by such designations. As such, 
we believe that the B-2 Preferred Alternative is deeply flawed, as was 
the process through which the choice of the preferred remedy was made.
    We urge the Department to withdraw the selection of the B-2 
Preferred Alternative and more fully and faithfully engage in 
meaningful consultation with the Alaska Native people who are most 
directly impacted by the IAP/EIS. This will lead to the selection of a 
preferred alternative that better reflects a balance between 
development of resources and the protection of areas with significant 
subsistence, recreational and fish and wildlife, based on sound 
scientific analyses.

            Sincerely,

                                              Richard Glenn
                                         Executive Vice-President  
                                        Lands and Natural Resources

                                 ______
                                 

    Dr. Gosar. I thank the gentleman.
    The Chair now recognizes Mr. Dixon for his testimony. Thank 
you.

    STATEMENT OF GARY DIXON, VICE PRESIDENT, INTERNATIONAL 
 BROTHERHOOD OF TEAMSTERS, LOCAL 959 ALASKA, ANCHORAGE, ALASKA

    Mr. Dixon. Thank you, Chairman Gosar and members of the 
Subcommittee. I appreciate the opportunity to give testimony in 
regards to promoting onshore oil and gas development in Alaska. 
My name is Gary Dixon, Jr., and I am the Vice President of 
Teamsters Local 959 in the state of Alaska. Not only am I a 
third-generation Alaskan, I am a third-generation Teamster 
Local 959 member.
    Teamsters Local 959 represents 5,000-plus workers all 
across the state of Alaska in a vast amount of industries. For 
example, AT&T, Usibelli Coal Mine, Kodiak Coast Guard Base, 
Lynden Transport, the two shipping companies, Matson and TOTE, 
at the Port of Anchorage, construction workers all over the 
state of Alaska and on the North Slope on pipeline and civil 
work, and maintenance workers on the Trans-Alaska Pipeline.
    I started my career on the North Slope, working for a 
pipeline company, Houston Contracting. It is an ASRC-owned 
company. I was the age of 18. I worked there for 20 years. I 
also worked on the Trans-Alaska Pipeline for many years. Over 
the years, we have seen the economic good times of building the 
Trans-Alaska Pipeline in the 1970s to the bad times in the late 
1980s, when oil hit $10 a barrel, real estate prices pummeled, 
people were filing for bankruptcy, banks were closing, and 
people were leaving Alaska. Alaska's economy has a large 
dependency on the oil industry.
    Other industries combined do not make up the amount of 
jobs, wages, and overall economic impact the oil industry has 
for the people of the state of Alaska. It is not just about the 
jobs the industry provides on the North Slope. It is also about 
the indirect jobs it creates to the Alaska economy and to other 
states in the Lower 48.
    New development is important to the Trans-Alaska Pipeline 
system. At its peak in 1988, it had 2 million barrels of oil 
going through it a day. Today, it has in the neighborhood of 
550,000 barrels a day as throughput average, which creates a 
problem for Alyeska Pipeline Company that operates the pipeline 
for the North Slope producers. Over the years, steady decline 
in the oil production on the North Slope is running much lower 
volume than originally designed, and oil temperatures and wax 
buildup are a big issue.
    The pipeline, half empty, it is harder to get the oil 
moving down the pipeline. It has created such a problem for 
Alyeska Pipeline that they have engineered a looping system 
that will direct oil from the mainline through this looping 
system to recirculate a few times, just to reheat the oil so 
they can send it down the pipeline easier.
    In the last 2 years, Alaskans have seen the loss of jobs on 
the North Slope, as oil prices have declined over the last 2 
years. With oil prices in January 2016 reaching the low of $25 
a barrel, Alaskans started to wonder if the state was going to 
go through another 1980s recession. During this time, 
ConocoPhillips kept their commitment to a project in the NPR-A 
called GMT-1, Greater Moose's Tooth 1, and in December 2016, 
work began in the field for this project. Without this project, 
it would have been the slowest winter work season that I can 
recall in many years.
    With the talk of opening up ANWR Section 1002 for 
development, and more development in the NPR-A, some say that 
developing into these areas will harm the environment and the 
animals. I disagree. I have found over the 20 years that I 
worked in the field up on the North Slope that all the 
producers have a very high regard to protecting the 
environment, the animals, and the safety of personnel are their 
top priorities.
    Our members at Local 959 depend on the development of new 
oil discoveries on the North Slope. New development equals new 
jobs for our members and has a trickle-down effect on other 
industries around the state where we represent workers.
    In conclusion, Alaska's oil and gas prospects in ANWR 
Section 1002 and the NPR-A hold a big role in American energy 
for the future. It would lessen the burden of importing more 
oil for the United States, it would help the Trans-Alaska 
Pipeline with its throughput problems, it would create jobs in 
the future, so the next generation of workers could earn a 
living, a good living for themselves and their families. I know 
this because it has given me the opportunity to provide a good 
living for me and my family. Thank you.
    [The prepared statement of Mr. Dixon follows:]
   Prepared Statement of Gary Dixon Jr., Vice President/Director of 
 Construction, International Brotherhood of Teamsters Local 959, Alaska
    Thank you Chairman Gosar and members of the Subcommittee. Thank you 
for the opportunity to testify regarding ``Promoting Onshore Oil and 
Gas Development in Alaska.''
    My name is Gary Dixon Jr., I am the Vice President and Director of 
Construction for the International Brotherhood of Teamsters Local 959, 
State of Alaska. Not only am I a proud third generation Alaskan, I am a 
proud third generation member of Teamsters Local 959. My grandfather 
was the first President of Teamsters Local 959 and my father was the 
Director of Construction for Local 959, before, during and after the 
building of the Trans Alaska Pipeline. Teamsters Local 959 represents 
5,000 plus workers in the state of Alaska in a vast amount of 
industries. For example, AT&T Technicians, Installers and Warehousemen 
state wide, all of the workers at Usibelli Coal Mine, maintenance 
workers at the Kodiak Coast Guard Base, various freight industry 
companies. The Port of Anchorage, along with our affiliate AILU 
(Anchorage Independent Longshore Union) representing workers at the two 
shipping companies Matson and TOTE. Construction workers state wide and 
including those working on North Slope of Alaska Oil Fields, Pipeline 
and Civil construction and maintenance workers maintaining all 800 
miles of the Trans Alaska Pipeline, from Pump Station #1 to the Valdez 
Marine Terminal, to name a few of the industries we represent workers 
in the state of Alaska.
    I started my career in 1985, as a Teamster at the age of 18, 
working in the oil fields of the North Slope of Alaska. I worked for 
Houston Contracting (ASRC owned company), a Pipeline company, that had 
the job of laying 200 miles of pipe in a newly developed field called 
Kuparuk. I started off as a flatbed driver. Over the years of working 
on the North Slope, I worked my way up the ladder of positions and 
eventually became a General Foreman for Houston Contracting, starting 
the development of a new field named Alpine. I was 29 and it was the 
biggest Pipeline job to hit the North Slope since the development of 
Kuparuk. Over the years I would work the winters on the North Slope 
Pipelining and the summers working on the Trans Alaska Pipeline, doing 
maintenance work. After 20 years working in the field, I became a 
Business Representative for Teamsters Local 959. I represent workers in 
the Construction Industry and mainly those on the North Slope and those 
working on the Trans Alaska Pipeline.
    Over the years there was the good times of the boom of building the 
Trans Alaska Pipeline to the bad times in the Alaska economy in the mid 
to late 1980s. There was very little work at the recently developed 
North Slope back then and the Alaska's economy spiraled downward. Real 
estate prices pummeled, people filling for bankruptcy, banks closing, 
people started to leave Alaska. It was a wake-up call most will never 
forget.
    The economy in Alaska has a large dependency on the Oil industry, 
(see attachment McDowell report). Other industries combined do not make 
up the amount of jobs, wages, and overall economic impact the Oil 
industry has for the people of Alaska. It's not all about the jobs the 
industry provides on the North Slope, it's also about the indirect jobs 
it creates to the Alaska economy and to other states in the Lower 48.
    New Oil development is important to the Trans Alaska Pipeline 
System. The Trans Alaska Pipeline at its peak in 1988 had 2 million 
barrels of oil going through it a day. Today it has in the neighborhood 
of 500,000 barrels a day as a throughput average. Which creates 
problems for Alyeska Pipeline company that operates it for the North 
Slope Producers. The Trans Alaska Pipeline was built for full capacity 
and over the years of steady decline in oil production on the North 
Slope, it is running at much lower volume than originally designed. Oil 
temperature and wax buildup are the problems, with the pipeline more 
than half empty, the temperature drops and the oil takes longer to get 
to the terminal in Valdez. It has created such a problem for Alyeska 
pipeline that they have engineered at a site in the interior of Alaska 
along the pipeline, that reheats the oil, through a looping system, 
several times before they return it to the Trans Alaska Pipeline to go 
south to Valdez.
    Alaskans have seen the loss of jobs on the North Slope for the last 
2 years. With oil prices around $25 a barrel, in the beginning of 2016, 
Alaskans started to wonder if the state was going to go through another 
``late 1980s'' again. ConocoPhillips, kept their commitment to a 
project in the NPR-A called GMT-1 (Greater Mooses Tooth 1). In December 
of 2016, work began in the field for this project. Nanuq, Inc. was 
awarded the contract to build the ice roads and the 8-mile gravel road 
and 10-acre gravel pad for ConocoPhillips new drill site, that would 
tie into the Alpine field. Houston Contracting was awarded the building 
of all Pipelines for this Project. Over 500 workers just between these 
two contractors alone were put to work on this project. It will take 
two winter seasons to finish this project. Besides GMT-1, it was a slow 
winter season on the North Slope of Alaska.
    ANWR Section 1002 and NPR-A, some say that developing into these 
two areas will harm the environment and the animals. I disagree. In the 
mid 1990s the company I was working for on the North Slope was asked by 
one of the Producers to provide a bus driver for a group of 
environmentalists that would be touring around the Prudhoe Bay field. 
So the company complied and sent them a bus driver, one that had been 
around the oil field for awhile, to drive these people around, while 
the tour guide spoke to the group. The group kept seeing these caribous 
laying under the module buildings and around the equipment, in 
particular the 1400 air compressor. That compressor was on wheels and 
was big and noisy. Finally after seeing this multiple times, one of the 
environmentalists asked why would the caribou be hanging around these 
buildings and equipment? Isn't it afraid or nervous being around these 
man-made items and equipment that was running so loud? The bus driver 
had heard enough and stopped the bus. He said to all of them, ``these 
animals don't know any better, these buildings and equipment where here 
before they were. In essence, they where raised up seeing these things 
and furthermore they use the buildings and equipment to their advantage 
for shelter from the mosquitos. The air compressors engine blew air on 
them and that kept the mosquitos away also.''
    I have found over the 20 years I worked on the North Slope that all 
of the Producers have a high regard for the environment. They build ice 
roads to travel on in the winter time to protect the tundra and its 
vegetation. Around May, they start to melt away, every year, leaving 
new people to the North Slope in the summer time wondering how, ``how 
did they put that pipeline across the land and there are no marks on 
the ground?'' Protecting the environment, the animals and safety of 
personnel, are top priorities of the Producers. They are constantly 
talking about those subjects to the men and women working in the field.
    In conclusion, Alaska's oil and gas prospects in ANWR Section 1002 
and NPR-A hold a big role in American energy for the future. It would 
lessen the burden of importing more oil for the United States. It would 
help the Trans Alaska Pipeline with its throughput problems. It would 
create jobs in the future, so that the next generation of workers could 
earn a good living for them and their families.

                                 *****

                               ATTACHMENT
                               
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                                               

    Mr. Bishop [presiding]. Thank you, Mr. Dixon.
    We will now recognize Mr. Pourchot for your testimony. You 
have 5 minutes.

  STATEMENT OF PAT POURCHOT, FORMER SPECIAL ASSISTANT TO THE 
SECRETARY OF THE INTERIOR FOR ALASKA AFFAIRS, ANCHORAGE, ALASKA

    Mr. Pourchot. Thank you very much, Chairman Gosar and 
Chairman Bishop, Ranking Member Lowenthal, and members of the 
Subcommittee. Thank you for the privilege of allowing me to 
testify. Today, I am testifying as a retired public servant and 
private citizen. Over my past 45 years in Alaska, I have served 
as a Senator and Representative in the Alaska State 
Legislature, Commissioner of the State Department of Natural 
Resources, Senior Policy Representative with Audubon Alaska, 
and, most recently, Special Assistant to the Secretary of the 
Interior for Alaska Affairs.
    I wish to focus my remarks on the National Petroleum 
Reserve-Alaska, or Reserve, and specifically how the integrated 
activity plan, or IAP, has allowed ongoing oil and gas leasing 
and development, while protecting wildlife values in the 
Reserve.
    I would say at the onset the IAP was a science-based, well-
balanced approach to both oil development and protection about 
standing wildlife resources. Oil leasing and development in the 
Reserve is happening. The plan is alive and well. Surgery is 
not necessary.
    Since 1999, approximately 5.6 million acres have been 
leased in the Reserve, including over 1.1 million acres leased 
during the last administration. In 2010, an IAP was initiated 
for all the lands in the Reserve.
    The formulation of this plan was characterized by: (1) 
Significant public outreach and input. The draft EIS received 
over 400,000 comments. Extensive hearings and public meetings 
were held, and consultation was conducted with affected tribes 
and Native corporations.
    (2) A careful crafting of land use designations that 
balances statutory provisions for oil and gas leasing and for 
protecting key wildlife and other surface resources. 
Approximately 52 percent, or 11.8 million acres of the 23 
million-acre Reserve, which contains approximately 72 percent 
of the estimated recoverable oil, is available for oil and gas 
leasing.
    While the 1976 Transfer Act called for the leasing of oil 
and gas in the Reserve, it also called for the protection and 
designation of special areas of environmental subsistence, 
recreational, fish and wildlife, and historical or scenic 
values. Teshekpuk Lake, the Utukok River Uplands, and the 
Colville River were designated by the Secretary in 1977 as 
special areas.
    (3) Recognition of existing and potential oil and gas lease 
areas. Large areas south of Teshekpuk Lake Special Area within 
and adjacent to known oil and gas units remain available for 
oil and gas leasing. At the last lease sale in December, nearly 
half-a-million acres were leased by ConocoPhillips in this 
area.
    (4) Recognition of Reserve lands by local residents. The 
plan seeks to protect subsistence resources, including caribou, 
waterfowl, marine mammals, and fish. Of particular importance 
is the 40,000-head Teshekpuk caribou herd, where between 3,000-
5,000 animals have been annually harvested by local residents. 
Most of the calving migration routes and insect relief areas 
have been protected within the Teshekpuk Lake Special Area. 
Similarly, 40 villages stretching from the North Slope to the 
Yukon Delta depend on the harvest of the 200,000-head Western 
Arctic caribou herd, the largest in Alaska--perhaps the largest 
in North America now. The primary calving and insect relief 
areas of this herd are protected in the Utukok River Upland 
Special Area.
    While the plan recognizes the potential for economically 
recoverable oil in the Teshekpuk Lake area, 3.1 million acres 
in the T-Lake Special Area are not available for leasing 
because of the importance of the Teshekpuk Lake caribou herd, 
the internationally important waterfowl nesting, migration, and 
molting areas surrounding the lake, ESA-listed species, 
including polar bears, spectacled and Steller's eiders, and the 
highest breeding density of shorebirds in the circumpolar 
Arctic.
    No leasing north or west of the lake has occurred under any 
Federal administration over the past 40 years. There will 
always be changing circumstances and new information that may 
warrant future changes to the AIP. But the base information and 
the formulation of the current AIP are sound, they are in 
accord with law, and strike a fair and reasonable balance in 
the treatment of the natural resources owned by all the 
citizens of this country.
    Any changes to the plan should take the deliberative time 
and effort that went into the original construction of the 
plan. The impacts of ongoing development and the Arctic's 
rapidly changing environment are far from known. A 
precautionary approach to land use decisions should be 
followed, while research continues and results brought forward.
    The management plan for the NPR-A is not broken. It is 
working. It is worthy of continued implementation.
    Thank you for this opportunity to testify.

    [The prepared statement of Mr. Pourchot follows:]
                   Prepared Statement of Pat Pourchot
    Mr. Chairman, members of the Subcommittee, thank you for the 
privilege of allowing me to testify today on this important topic. 
Although I have served in several roles in the past with direct 
involvement in oil and gas issues in Alaska, today I am testifying as a 
retired public servant and private citizen.
    My past ``lives'' over 45 years in Alaska have included serving as 
a Senator and Representative in the Alaska State Legislature, 
Commissioner of the Alaska State Department of Natural Resources, 
Senior Policy Representative with Audubon Alaska, and most recently, 
Special Assistant to the Secretary of the Interior for Alaska Affairs. 
These positions have obviously provided me varying viewpoints and 
experiences with land management and oil and gas issues in Alaska.
    Over the past several decades interest in Federal onshore oil and 
gas leasing has been focused on the North Slope of Alaska, primarily in 
two large Federal management units: The Arctic National Wildlife 
Refuge, and the National Petroleum Reserve-Alaska (NPR-A or 
``Reserve''). Oil and gas leasing has not been permitted under law in 
the Arctic Refuge. Because any future oil and gas leasing or 
development requires congressional action, I wish to focus my remarks 
on the NPR-A, and specifically on how the comprehensive management plan 
(Integrated Activity Plan or ``IAP'') has allowed ongoing oil and gas 
leasing and development while protecting important wildlife values in 
the Reserve.
    I would say at the onset, the IAP was a science-based, well-
balanced approach to both oil development and protection of outstanding 
wildlife resources. Oil leasing and development in the Reserve is 
happening. The plan is alive and well, surgery is not necessary.
    Management of the former Naval Petroleum Reserve #4 was transferred 
to the Department of the Interior, Bureau of Land Management under the 
Naval Petroleum Reserves Production Act (NPRPA) in 1976. Although there 
was some leasing in the early 1980s, all leases expired by 1992 without 
development. After management plans for some of Reserve lands were 
completed, leasing was renewed in 1999 and continued at intervals to 
2010. In 2011 President Obama called for annual lease sales in the 
Reserve which have continued through last year. Since 1999 
approximately 5.6 million acres have been leased including over 1.1 
million acres leased during the last administration. It should be noted 
that over that time significant numbers of leases have been 
relinquished or have expired.
    Prior to 2010, management plans were only completed for the NE and 
NW sections of the Reserve. In 2010 a comprehensive Integrated Activity 
Plan (IAP) was initiated for all lands in the Reserve to review and 
utilize updated resource information, ESA listings, and oil and gas 
assessments in management decisions. It also examined the influences of 
conditions and activities outside the Reserve, notably climate change 
and oil exploration in the Chukchi Sea. A final EIS was completed in 
late 2012 and a final plan adopted in early 2013. The formulation of 
this plan was characterized by:

  1.  Significant public outreach and input. The scoping document 
            received 147,000 comments, the Draft EIS received over 
            400,000 comments, extensive hearings and public meetings 
            were held on the North Slope and elsewhere in Alaska, input 
            was received from four cooperating agencies (State of 
            Alaska, U.S. Fish and Wildlife Service, Bureau of Ocean 
            Energy Management, and the North Slope Borough), and 
            consultation was conducted with affected tribes and Native 
            corporations.

     In addition to the extensive public outreach and input, the plan 
            created a ``Working Group'' composed of local governments, 
            tribes and Native corporations to advise the BLM on a 
            continuing basis of management issues and needs.

  2.  Extensive review of scientific research and data with respect to 
            resources of the Reserve and use of this resource 
            information in the land use designations and stipulations 
            contained in the IAP. The plan utilized USGS estimates of 
            recoverable oil reserves (1 billion barrels), most of which 
            was in the Northeast portion of the Reserve. The plan also 
            recognized the documented important wildlife values of the 
            Reserve, including the Teshekpuk Caribou Herd, the Western 
            Arctic Caribou Herd, ESA designated endangered and 
            threatened species, migrating and molting waterfowl, marine 
            mammals, and other significant fish and wildlife resources.

  3.  A careful crafting of land use designations and stipulations that 
            balances the dictates of the NPRPA for oil and gas leasing, 
            and for protecting key wildlife and other surface 
            resources. Approximately 52 percent, or 11.8 million acres, 
            of 23-million acre Reserve is available for oil and gas 
            leasing which contains approximately 72 percent (549 
            million barrels) of the estimated recoverable discovered 
            and undiscovered oil. Several ``Special Areas'' are 
            designated in recognition of internationally significant 
            wildlife and habitat including the Utukok River Uplands 
            Special Area and the Teshekpuk Lake Special Area.

     While the NPRPA as amended called for the leasing of oil and gas 
            in the Reserve, it also contained specific language related 
            to the protection of other natural resources. SEC. 103(b) 
            authorizes the Secretary of the Interior to promulgate 
            rules and regulations as necessary for the protection of 
            environmental, fish and wildlife, and historical or scenic 
            values. SEC. 104(b) enables the Secretary to designate 
            areas containing any significant subsistence, recreational, 
            fish and wildlife, or historical or scenic values, 
            including specifically the Utukok River and the Teshekpuk 
            Lake areas. Any exploration within those designated areas 
            must be conducted in a manner assuring the maximum 
            protection of those surface values. Both areas, along with 
            the Colville River, were designated by the Secretary in 
            1977 as Special Areas.
  4.  Recognition in land use designations of potential needs for 
            infrastructure required from adjacent offshore oil and gas. 
            Approximately 14 million acres are available for 
            infrastructure needs associated with potential offshore oil 
            and gas development in the Chukchi and Beaufort Seas, 
            including areas within Special Areas. See Map A. Pipelines 
            and other infrastructure were specifically allowed in the 
            northern part of the Utukok River Uplands Special Area in 
            recognition of potential pipeline needs from Chukchi Sea 
            oil and gas development. Similarly, large sections of the 
            southern and western Teshekpuk Lake Special Area remain 
            available for potential pipeline needs from Beaufort Sea 
            oil development.

                                 MAP A
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


  	5.  Recognition of existing and potential oil and gas lease areas 
            and developments in land use designations. Large areas 
            south of the Teshekpuk Lake Special Area within and 
            adjacent to known oil and gas units (Colville Delta, 
            Greater Mooses Tooth, Bear Tooth) remain available for oil 
            and gas leasing (See Map B). At the recent lease sale in 
            December of 2016, nearly \1/2\ million acres were leased by 
            ConocoPhillips in this area west and south of the 
            ``Willow'' well discovery within the Greater Mooses Tooth 
            unit.

                                 MAP B
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

 	6.  Recognition of the use of NPR-A lands by local village 
            residents, especially for subsistence and cultural 
            activities. Many North Slope village residents are highly 
            dependent on the harvesting of fish and wildlife resources 
            from Reserve lands. The plan seeks to protect these 
            subsistence resources including caribou, waterfowl, marine 
            mammals, and fish. Of particular importance to Barrow, 
            Atqasuk, and Nuiqsut is the 40,000-head Teshekpuk Caribou 
            Herd where between 3,000 and 5,000 animals have been 
            annually harvested. Most of the calving, migration routes, 
            and insect relief areas have been protected within the 
            Teshekpuk Lake Special Area. See Map C. Similarly, 40 
            villages stretching from the North Slope to the Yukon Delta 
            depend on harvest of the 200,000-head Western Arctic 
            Caribou Herd, the largest in Alaska and at present perhaps 
            the largest in North America. The primary calving and 
            insect relief areas of this herd are protected in the 
            Utukok River Uplands Special Area.

                                 MAP C
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    	Some have criticized the plan's restrictions on oil and gas 
leasing in approximately 48 percent of the Reserve. It needs to be 
pointed out that of the 11 million acres closed to oil and gas leasing, 
over 7 million acres lie within the Utukok River Uplands Special Area 
in the SW part of the Reserve. USGS estimated recoverable oil in this 
area to be very low. Although there was some potential for gas 
resources in this area, distance to Prudhoe Bay infrastructure, large 
existing reserves of natural gas around Prudhoe Bay, and the absence of 
a gasline make development of these gas resources economically 
challenged.
    The plan did recognize the medium to high potential for 
economically recoverable oil in the Teshekpuk Lake area. The plan 
expanded the existing Teshekpuk Lake Special Area and restricted oil 
and gas leasing in 3.1 million acres in recognition of the importance 
of: (1) The Teshekpuk Caribou Herd's calving, migration, and insect-
relief areas; (2) The internationally important waterfowl nesting, 
migration, and molting area surrounding the lake (100,000 molting 
geese, including up to 30 percent of the Pacific Flyway Brant); (3) 
ESA-listed species including Polar Bear, Spectacled and Steller's 
eiders, Yellow-billed loon nesting (previous Candidate for listing); 
and (4) Shorebirds--Teshekpuk Special Area has the highest breeding 
density of shorebirds in the circumpolar Arctic.
    The lands surrounding Teshekpuk Lake have received special 
designation and protection since transfer in 1976. No leasing north or 
west of the Lake has occurred under any Federal administration over the 
past 40 years.
    Under the plan approximately 28 percent of estimated recoverable 
oil resources would not be available for leasing and development. 
However, it should be noted that the plan based economically 
recoverable oil on $180/barrel and natural gas recovery on $8.67/Mcf. 
This week Alaska oil is selling around $47/barrel and natural gas 
around $3/Mcf (or billion BTUs). At today's prices recoverable oil and 
gas estimates, particularly outside of the current oil and gas units, 
were probably overstated.
    Other changes since adoption of the plan include the abandonment of 
Shell's Chukchi Sea exploration program and the relinquishment of most 
oil and gas leases in the Chukchi. Consequently, the potential for 
cross-reserve pipelines or other related infrastructure for oil 
development in the Chukchi is considerably reduced in the predictable 
future. Of note, since the plan's adoption, litigation, including by 
environmental groups, has been greatly reduced and no proposed oil 
development within the Reserve has been stopped.
    No plan is sacrosanct or immutable. There will always be changing 
circumstances, changing environments, and new information that may 
warrant changes to the IAP. But, the base information and the 
consideration of that information in the formulation of the IAP are 
sound, in accord with law, and strike a fair and reasonable balance in 
the treatment of the natural resources owned by all the citizens of 
this country. Any changes to the plan will and should take the 
deliberative time and effort that went into its original construction. 
The impacts of ongoing development, the Arctic's rapidly changing 
climate, human interactions, and other factors on fish and wildlife 
populations are far from known and research is ongoing. Much more needs 
to be learned and a precautionary approach to land use decisions should 
be followed while this research continues and results brought forward.
    The management plan for the NPR-A is not broken, it is working, it 
is worthy of continued implementation.
    Thank you for this opportunity to testify.

                                 ______
                                 

  Questions Submitted for the Record to Pat Pourchot, Former Special 
     Assistant to the Secretary of the Interior for Alaska Affairs
                   Questions Submitted by Rep. Gosar
    Question 1. During the hearing, you stated that there are studies 
indicating that oil and gas development has a negative impact on 
species in the North Slope region. Will you provide copies of these 
studies for the Committee?

    Answer. As I testified, there are a number of studies over the past 
several decades that have shown negative impacts on wildlife of 
activities associated with oil and gas development on Alaska's North 
Slope, including the National Petroleum Reserve-Alaska.
    A comprehensive study was conducted by the National Academies, 
National Research Council's Committee on Cumulative Environmental 
Effects of Oil and Gas Activities on Alaska's North Slope. The 2003 
report of the Committee documented a number of impacts from North Slope 
oil development. A summary of the report is attached.
    Impacts on caribou. Attached is a 2002 study by Cameron, et. al. 
discussing impacts of oil development on the Central Arctic Caribou 
Herd. Also attached are comments on the IAP DEIS from several 
conservation groups containing citations for studies finding negative 
impacts on caribou calving (see pp. 11-13).
    Impacts on birds. Attached is a 2009 study by Liebezeit, et. al. 
``Influence of human development and predators on nest survival of 
tundra birds, Arctic Coastal Plain, Alaska.''
    Also attached is a 1993 study by M.W. Miller et. al. ``A simulation 
model of helicopter disturbance of molting Pacific black brant.''
    See also page 9 of the attached conservation group IAP DEIS comment 
letter for references to studies demonstrating impacts of development 
activities on molting geese.
                 Questions Submitted by Rep. Lowenthal
    Question 1. During the hearing, Representative Young stated that 
``we should listen to the people who live there'' when it comes to 
development on the North Slope. Did the Obama administration listen to 
the people who live on the North Slope during development of the NPR-A 
IAP and the ANWR CCP? If so, what were their positions on those efforts 
and their outcomes, and what are the positions of North Slope 
communities regarding additional development in ANWR, the NPR-A and 
other nearby regions?

    Answer. During scoping of the NPR-A IAP the BLM held eight public 
meetings in Alaska and received approximately 147,000 comments. During 
review of the Draft IAP/EIS the BLM held nine public meetings in Alaska 
and received more than 401,000 comments. In addition consultation 
during the IAP process occurred with a number of tribal organizations 
and Native corporations in the NPR-A region. Attached are resolutions 
of support from 28 regional villages and Native organizations for 
management protections for caribou herds and associated habitat in the 
NPR-A. In response the BLM designated key calving, insect-relief, and 
migration routes for the Western Arctic Caribou Herd and the Teshekpuk 
Caribou Herd as special areas where oil and gas development would not 
be permitted.
    During development of the CCP for the Arctic Refuge eight scoping 
meetings were held and over 94,000 comments received. Six public 
meetings were held on the Draft CCP/EIS and over 612,000 comments were 
received. Most commenters favored wilderness designation of the Coastal 
Plain of the Refuge. In addition, consultation was held with nine 
tribal entities in the region.
    Attached are resolutions from four Alaska Native organizations 
representing dozens of tribal entities supporting wilderness protection 
of the Coastal Plain of the Arctic Refuge. In addition, attached are 
comments from the Gwich'in Steering Committee on the CCP in support of 
wilderness designation of the Coastal Plain of the Arctic Refuge. Also 
attached a resolution of support from Gwich'in Niintsyaa of wilderness 
designation of the Coastal Plain of the Arctic Refuge to prevent oil 
development and protect the porcupine caribou herd. The CCP Record of 
Decision recommended wilderness designation of the Coastal Plain of the 
Refuge.

                                 *****

The following documents were submitted as attachments to Mr. Pourchot's 
responses. These documents are part of the hearing record and are being 
retained in the Committee's official files:

    --  The National Academies, Report in Brief, ``Cumulative 
            Environmental Effects of Oil and Gas Activities on Alaska's 
            North Slope''

    --  Arctic, Vol. 58, No. 1 (March 2005), P. 1-9, Cameron, R.D., et 
            al., ``Central Arctic Caribou and Petroleum Development: 
            Distributional, Nutritional, and Reproductive 
            Implications''

    --  June 7, 2012 Letter from Audubon Alaska, Ocean Conservancy, and 
            the PEW Environment Group to Bud Cribley, State Director, 
            Bureau of Land Management, Alaska Office, regarding NPR-A 
            Integrated Activity Plan Draft Environmental Impact 
            Statement

    --  Ecological Applications, 19(6), 2009, pp. 1628-1644, Liebezeit, 
            J.R., et al., ``Influence of human development and 
            predators on nest survival of tundra birds, Arctic Coastal 
            Plain, Alaska''

    --  Ecological Modelling, 73 (1994), 293-309, Miller, M.W. et al., 
            ``A simulation model of helicopter disturbance of molting 
            Pacific black brant''

    --  Resolution 11-10-003 Native Village of Unalakleet; Resolution 
            2012-51 Tanana Chiefs Conference; Resolution 2012-04 
            Village of Solomon, Nome, Alaska; Resolution 12-07 Native 
            Village of Shishmaref; Resolution 11-25 Native Village of 
            Shaktoolik; Resolution 12-11 Native Village of Selawik; 
            Resolution 12-08 Governing Body of the I.R.A. Council of 
            the Village of Nome; Resolution 11-33 Native Village of 
            Noatak; Resolution 11-10-02 Native Village of St. Michael; 
            Resolution 2011-20 Native Village of Elim; Resolution 11-
            10-11-26 Native Village of Brevig Mission; Resolution 12-
            01-06-03 Native Village of Koyuk; Resolution 2011-16 Native 
            Village of Kobuk; Resolution 12-09 Native Village of 
            Kivalina; Resolution 2012-10 Native Village of Kawerak; 
            Resolution 11-05 Native Village of Kaktovik; Resolution 
            2011-16 Inupiat Community of the Arctic Slope; Resolution 
            11-24 Deering IRA Council; Resolution 2012-09 City of 
            Wainwright; Resolution 2012-03 Anaktuvuk Pass Village 
            Council; Resolution 12-01 Allakaket Tribal Council; 
            Resolution 2011-24 Native Village of White Mountain; 
            Resolution 2012-03 Native Village of Point Hope; Resolution 
            11-10 Native Village of Wales; Resolution 12-08-01 Native 
            Village of Council; Resolution 12-63 Native Village of 
            Buckland; Resolution 12-07 Noorvik Native Community; 
            Resolution 2012-08 Native Village of Point Lay IRA Council

    --  Letters of Support for the Arctic Refuge Comprehensive 
            Conservation Plan from United Tribes of Bristol Bay, Tanana 
            Chiefs Conference, Council of Athabascan Tribal Governments 
            and Native American Rights Fund

    --  Gwich'in Steering Committee, Comments on Arctic National 
            Wildlife Refuge--Draft Comprehensive Conservation Plan, 
            Nov. 15, 2011

    --  Gwich'in Niintsyaa 2016, Resolution to Protect the Birthplace 
            and Nursery Grounds of the Porcupine Caribou Herd

                                 ______
                                 

    Mr. Bishop. Thank you.
    Now we will turn to Mr. Jepsen for your 5 minutes. You are 
recognized.

STATEMENT OF SCOTT JEPSEN, VICE PRESIDENT, EXTERNAL AFFAIRS AND 
   TRANSPORTATION, CONOCO PHILLIPS ALASKA, ANCHORAGE, ALASKA

    Mr. Jepsen. Thank you. Chairman Bishop, Chairman Gosar, 
Ranking Member Lowenthal, and members of the Subcommittee on 
Energy and Mineral Resources, my name is Scott Jepsen, and I am 
Vice President of External Affairs and Transportation for 
ConocoPhillips, Alaska.
    During my 37-year career, I have been responsible for oil 
and gas fields in the Lower 48, the North Slope, and Cook 
Inlet, located in South-Central Alaska. I am currently in my 
second assignment in Alaska, where, all told, I have spent 
about 29 years of my career.
    On behalf of ConocoPhillips, I appreciate the opportunity 
to appear before the Subcommittee today to provide testimony 
regarding our experience developing oil and natural gas 
resources in Alaska, and particularly in the National Petroleum 
Reserve, or NPR-A.
    ConocoPhillips is the world's largest independent 
exploration and production company. We are a global company 
with operations and activities in 17 countries. In the Lower 
48, we have operations and/or acreage positions in the home 
states of many of the members of the Subcommittee, specifically 
Texas, Louisiana, Colorado, New Mexico, and Wyoming.
    In Alaska, ConocoPhillips is the leading North Slope 
producer. We have a nearly 50-year record of operating safely, 
reliably, and in an environmentally sound manner, despite the 
North Slope's Arctic conditions and remote location. We have 
also been one of the leading North Slope explorers, especially 
in NPR-A.
    The North Slope contains some of the Nation's most 
productive oil fields, as well as substantial exploration 
potential, and the economic benefits to the state, 
municipalities, businesses, Native corporations, shareholders, 
and the residents of Alaska have been significant. Our 
operations in Alaska have created jobs for thousands of 
Alaskans, generated business opportunities for companies in 
Alaska and the Lower 48, and generated tens of billions of 
dollars in tax and royalty revenue for Federal, state, and 
local government.
    Our efforts and those of other oil companies who continue 
to invest in existing fields and explore and develop new fields 
has been essential to maintaining the flow in the Trans-Alaska 
Pipeline, which currently transports around 500,000 barrels of 
oil per day.
    The exploration program ConocoPhillips has been pursuing in 
NPR-A since 2000 has resulted in multiple discoveries, namely 
Greater Moose's Tooth 1, otherwise known as GMT-1, Greater 
Moose's Tooth 2, or GMT-2, and Willow. With the start-up of 
drill sites CD-5 in the Alpine field, substantial production is 
starting to flow from NPR-A lands. We are continuing to explore 
in NPR-A and hope to make substantial new discoveries in the 
future.
    As we have moved from the exploration phase to production 
phase in NPR-A, we have found the permitting process to often 
be longer than expected, more difficult, costlier, and 
uncertain. We would like to see the Federal Government and the 
BLM, in particular, improve their processes to eliminate 
elements that do not add value. Here are some suggestions that 
would address this goal.
    First, shorten the permitting time frame. The time to 
receive a Record of Decision for GMT-1 was 19 months. For GMT-
2, essentially a carbon copy of GMT-1, we are anticipating 
about 34 to 35 months. It took 11 months just to issue the SEIS 
notice of intent. Simply tightening up internal processes may 
be sufficient to shorten the permitting time frame.
    Second, do not implement new regulations or mitigation 
requirements without first assessing and recognizing measures 
already in place. In NPR-A, there are currently 265 best 
management practices and mitigation requirements, in addition 
to a Federal revenue-sharing requirement that provides funds 
for North Slope communities impacted by oil and gas development 
in NPR-A. ConocoPhillips is not asking that the existing 
requirements be relaxed or eliminated, but rather, the BLM 
should take into consideration existing measures before 
implementing any new mitigation requirements.
    Third, provide reasonable and cost-effective interpretation 
of existing regulations. For GMT-1, the BLM has required that 
we include full separation of oil, gas, and water for royalty 
measurement purposes. This added about $15 million to the cost 
of the project. We believe the BLM had the ability to have 
approved a different, less costly methodology.
    We would also ask BLM to reconsider the lands that are 
unavailable for leasing in the northeast sector of NPR-A. The 
2013 NPR-A Record of Decision made a significant area of land 
unavailable for leasing in this area. We believe the Record of 
Decision placed more land off limits than is needed to protect 
wildlife and subsistence resources.
    And last, there is intense competition for oil and gas 
investment dollars. The remoteness and challenging Arctic 
conditions of NPR-A already put it at a cost disadvantage to 
other locales. Unnecessary requirements that impose additional 
costs or delay development could ultimately make investment 
opportunities at NPR-A non-competitive.
    Recently, we have been encouraged by changes in the 
Department of the Interior's philosophy regarding the 
management of Federal lands. We are hopeful that these changes 
will address the issues that I have discussed today.
    ConocoPhillips recognizes and applauds the Subcommittee's 
sincere interest in ensuring the energy future of our Nation, 
and we appreciate the opportunity we have had today to share 
our views and experience. I will be happy to answer any 
questions that the Subcommittee members may have. Thank you.
    [The prepared statement of Mr. Jepsen follows:]
 Prepared Statement of Scott Jepsen, Vice President, External Affairs 
               and Transportation, ConocoPhillips Alaska
                              introduction
    Chairman Gosar, Ranking Member Lowenthal, and members of the 
Subcommittee on Energy and Mineral Resources: my name is Scott Jepsen, 
and I am Vice President of External Affairs and Transportation, 
ConocoPhillips Alaska. ConocoPhillips appreciates the opportunity to 
submit testimony to the Committee regarding our experience developing 
oil and natural gas resources in Alaska, and particularly in the 
National Petroleum Reserve-Alaska (NPR-A).
                        conocophillips overview
    ConocoPhillips is the world's largest independent oil and natural 
gas exploration and production company based on proved reserves and 
production. Headquartered in Houston, Texas, we are a global company 
with operations and activities in 17 countries, $88 billion in total 
assets, and approximately 13,100 employees as of March 31, 2017. 
Production excluding Libya averaged 1.584 million barrels of oil 
equivalent per day during the year's first quarter, and proved reserves 
were 6.4 billion equivalent barrels as of year-end 2016. Our largest 
sources of production include the Lower 48 U.S. states, Alaska, Canada, 
Europe and North Africa, and Asia Pacific and Middle East. In the Lower 
48 specifically, we have operations and/or acreage in many of the home 
states of the members of this Subcommittee including in Texas, 
Colorado, New Mexico, Wyoming and Louisiana.
                    our alaska presence and history
    ConocoPhillips is Alaska's largest oil producer, with significant 
interests in the Prudhoe Bay, Kuparuk River and Colville River units; 
we serve as operator of the latter two units. Approximately 1,100 
employees and 1,800 contractors work in our Alaska operations, and we 
are one of Alaska's most active North Slope explorers and developers. 
Our 50-year history in Alaska goes back to the early days of Cook Inlet 
development and North Slope exploration. One of our heritage companies, 
ARCO Alaska, discovered the Prudhoe Bay Field. Another, Phillips 
Petroleum, helped create the Asia Pacific LNG market with construction 
of the Kenai plant and initiation of international sales to Japan in 
1969. We have been in Alaska since the founding of its modern oil and 
gas industry, and with our large Federal and state leasehold positions 
plan to be there for decades to come. We are currently, along with 
Anadarko, our co-venturer in the Colville River Unit, the most active 
explorer and developer in the NPR-A. We see significant potential for 
long-term development in NPR-A.
              current exploration and production activity
Alpine Field
    The Alpine Field (contained within the Colville River Unit), the 
westernmost field on the North Slope, extends into the NPR-A. Alpine 
was discovered in 1994 by ARCO Alaska and came on production in 2000. 
Colville River Unit production peaked in 2007 at approximately 139,000 
barrels of oil per day (BOPD) gross and today is producing around 
60,000 BOPD gross.
    Alpine has no permanent road connection to other North Slope 
infrastructure. Each winter, we build an ice road connecting Kuparuk to 
Alpine and transport enough supplies and equipment for the entire 
operating year, requiring more than 1,500 truckloads. More than 8 years 
of environmental studies guided conceptual development of the field, 
enabling engineers and environmental experts to locate drill sites and 
facilities to minimize impacts on the subsistence lifestyle of North 
Slope Alaska Natives, and on wildlife and waterfowl.
    Alpine is located partially on Kuukpik Corporation (the Native 
village corporation for the nearby village of Nuiqsut) lands, with a 
portion of the subsurface owned by Arctic Slope Regional Corporation, 
the Alaska Native regional corporation for the North Slope. The state 
of Alaska is also a mineral owner in Alpine.
    Alpine has a very small land footprint, made possible through 
continually progressing modern drilling and production technology. The 
total footprint of the roads, pads and processing facilities in the 
Colville River Unit is about 220 acres. This represents about 0.3 
percent of the total area currently under development. The field has 
been developed through use of extended-reach and horizontal drilling 
that optimizes efficient use of the land. For example, each of Alpine's 
12-acre drilling pads can access approximately 55 square miles of the 
deep subsurface. By comparison, in the 1970s a 65-acre pad could 
provide access to only about 3 square miles of subsurface. 
ConocoPhillips recently contracted for construction of an advanced 
drilling rig that will more than double the area that can be developed 
from a drill site to approximately 125 square miles. Additionally, 
Alpine is a near-zero discharge facility that uses clean-burning 
natural gas for power generation, and supplies natural gas (free of 
charge) to Nuiqsut for power and residential heating.
CD5 Development
    About one-third of Alpine's production comes from drill site CD5, 
the latest development in the Colville River Unit. CD5 began producing 
in October 2015. CD5 produces oil and gas from Federal, State/ASRC 
joint lands, and Alaska Native corporation-owned lands inside the NPR-
A. It is the first commercial oil development on Alaska Native 
corporation land in the NPR-A.
    CD5's current production of 20,000+ (BOPD) gross has exceeded our 
original peak production estimate of 16,000 BOPD gross. Over 700 people 
were employed during the peak winter construction seasons in 2014 and 
2015. In 2016, additional wells were approved raising the total well 
count to 33 and total investment in the project to $1.3 billion. The 
additional wells are planned to come on-line in the third quarter of 
this year, and are expected to further increase production at CD5.
Greater Mooses Tooth Developments
    ConocoPhillips has identified other development opportunities in 
the Greater Mooses Tooth (GMT) Unit in NPR-A that capitalize on 
existing infrastructure, thus minimizing the need for new facilities. 
Approximately 8 miles west of CD5, the Greater Mooses Tooth #1 (GMT1) 
development was sanctioned for funding in November 2015, with the first 
construction season completed this past April. It will require total 
investment of approximately $900 million gross and employ about 700 
people during each of two winter construction seasons, ultimately 
yielding estimated gross peak production of around 30,000 BOPD with 
first oil expected in late 2018.
    We also filed permits in August 2015 for Greater Mooses Tooth #2 
(GMT2). We hope to approve funding of the project by the second quarter 
of 2018, with first oil planned for late 2021. Total investment will 
exceed $1 billion. The proposed drill site will accommodate up to 48 
wells, with estimated gross peak monthly production of 25,000-30,000 
BOPD. Peak employment during construction will be similar to GMT1, 
about 700 positions. Since both GMT1 and GMT2 are near Alpine, they 
will utilize existing pipelines and processing facilities.
Willow Discovery
    In January we announced Willow, a new oil discovery in the western 
portion of the GMT Unit, about 28 miles west of the Alpine Central 
Facility. Initial estimates indicate recoverable resource potential 
exceeding 300 million barrels of oil. Subject to future appraisal 
results and development options, Willow could produce up to 100,000 
BOPD. This past winter we began appraisal work using 3D seismic data 
analysis.
Further Exploration
    We are currently considering up to a four-well 2018 winter 
exploratory drilling program in the NPR-A, subject to final budget 
approval. Three wells would better define the Willow discovery and one 
would target potential new resources.
    Our recent exploration successes in NPR-A were the basis for our 
substantial acreage acquisition in the December 2016 NPR-A lease sale. 
Jointly, ConocoPhillips and Anadarko acquired 594,972 gross acres 
contiguous to current lease holdings. We are now developing plans for 
assessing and exploring this acreage.
          environmental protection and stakeholder engagement
    At 24 million acres, the NPR-A is an area the size of Indiana. The 
surface occupancy of our current operations and planned developments is 
approximately 185 acres, or 0.0008 percent of the NPR-A's surface area. 
The lessons learned from almost 50 years of North Slope experience have 
enabled us to significantly reduce our operational footprint and 
successfully produce oil and gas with minimal environmental impact.
    ConocoPhillips embraces our role in responsibly accessing, 
developing and producing oil and natural gas, and cares deeply about 
the environment. As we have for decades, ConocoPhillips sponsors and 
employs environmental studies to better understand everything from air 
quality, hydrology and archeology to populations of mammals, birds and 
fish. Many studies are carried out cooperatively, working with local 
communities, government agencies and stakeholders to assess and monitor 
the ecosystems in which we operate.
Air Quality
    For decades ConocoPhillips has monitored North Slope air quality, 
with one of the monitoring stations in operation since 1999 in Nuiqsut, 
the village nearest our oil exploration and production operations. The 
results are shared with various North Slope communities, including 
Nuiqsut, and with state and Federal regulatory agencies. The 
measurements show that North Slope air quality at all locations is 
consistently better than national ambient air quality standards.
Wildlife Protection
    Caribou are an important subsistence resource for all North Slope 
Native communities. For more than 20 years, ConocoPhillips has 
collaborated with regulatory agencies to monitor the distribution and 
movement of the Teshekpuk and Central Arctic herds. This long-term 
study is important for ensuring our operations have minimal effect on 
caribou habitat and migration.
    For nearly 10 years, ConocoPhillips has consulted with the U.S. 
Fish and Wildlife Service on annual polar bear den detection surveys on 
the North Slope. Pregnant sows construct dens in drifted snow in which 
to birth and nurse their cubs. Surveys are conducted using aircraft 
equipped with a precision stabilized infrared (IR) camera to detect 
body heat emanating from bear dens. All travel and activity is 
typically prohibited within 1 mile of occupied dens.
Fishery Protection
    For nearly 30 years, ConocoPhillips has conducted monitoring of a 
unique North Slope subsistence fishery on the Colville River Delta, 
near our Alpine operations. Each fall, Nuiqsut residents set gill nets 
under the ice to catch Arctic Cisco (locally known as Qaaktaq) that 
have migrated into the delta to overwinter. Fishery biologists work 
with subsistence fishers to monitor the catch. The survey provides 
better understanding of current fish population dynamics, helps predict 
future harvests and provides insight into key factors that contribute 
to the health of the fishery.
Water Resource Protection
    ConocoPhillips remains committed to minimizing the use of valuable 
freshwater resources. We are a leader in coordination of water-sharing 
agreements between the various North Slope operators to protect 
freshwater sources from overuse.
Community Relations
    An important element of our operations is our close proximity to 
the village of Nuiqsut. Since we began developing Alpine in the late 
1990s, we have worked closely with Nuiqsut to be good neighbors and 
address concerns about the potential impact of oil and gas development 
on their lifestyle. We believe the relationships we have developed with 
North Slope residents are mutually beneficial and provide the basis for 
understanding and working together to resolve local concerns. When we 
were permitting CD5, we spent several years working closely with 
Nuiqsut residents to locate one of the bridges to a location that the 
elders felt would cause the least impact to subsistence fishing.
    Our goal is maintaining honest and respectful relationships with 
our Nuiqsut neighbors. We obtain feedback on our operations, and gather 
local and traditional knowledge to help protect subsistence resources. 
We also support community projects and work closely to develop and help 
fund economic opportunities. Our Village Outreach department is in 
frequent communication with Nuiqsut residents to find ways to balance 
the needs of subsistence resource users with oil and gas development.
    ConocoPhillips also works in close collaboration with regulatory 
agencies and other interested stakeholders to design and build 
infrastructure that minimizes disturbance to wetlands and the unique 
benefits they provide. For example, in 2015, ConocoPhillips constructed 
a fourth bridge on the road to our new CD5 development in a section 
where the original design concept called for a gravel road with 
culverts. The bridge mitigates potential impacts to hydrologic flow and 
distribution of nutrients. Another example of our efforts to protect 
wetlands is our redesign of the gravel pads needed for manual pipeline 
valves. By placing valve pads adjacent to existing gravel roads, we 
avoid the need for new access roads, which translates to a smaller 
footprint.
                 benefits of conocophillips operations
Revenue Generation
    On the North Slope, we work closely with the local borough 
government, village government, Native corporations, state and Federal 
agencies, and local residents in all phases of our operations. Our 
North Slope operations have generated hundreds of millions of dollars 
in property taxes to the North Slope Borough; tens of billions of 
dollars in royalties, severance taxes, income taxes and additional 
property taxes to the state of Alaska; and hundreds of millions of 
dollars in payments to the Federal Government. We have also paid in 
excess of a billion dollars to Arctic Slope Regional Corporation (ASRC) 
stemming from production of its minerals underlying the Colville River 
Unit, which under provisions of the Alaska Native Claims Settlement Act 
(ANSCA) benefits shareholders in Alaska Native Corporations statewide.
    As development moves farther west into NPR-A, the resulting 
economic stimulation will continue to benefit the state and Federal 
governments, as well as North Slope residents (see Attachment 1). The 
GMT1 and GMT2 projects alone, by developing mineral interests held by 
ASRC, are expected to yield over $700MM in long-term revenue to ASRC. 
Under ANSCA, ASRC will share 70 percent of its revenue with the other 
Native corporations in the state.

                              ATTACHMENT 1

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    	As development ultimately extends onto primarily Federal 
mineral interests, the benefits to the Federal Government will also 
increase. Half of the Federal revenues derived from oil and gas 
activities in NPR-A, by Federal statute, are earmarked for the state of 
Alaska, specifically for the NPR-A Impact Mitigation Grant Program 
which was created to offset the impacts of oil and gas development on 
NPR-A villages. Since 1999, over $150 million has been allocated to the 
North Slope for this purpose. In addition to taxes and royalties, our 
support for the North Slope Borough and Nuiqsut residents includes 
programs addressing education, subsistence, emergency response, 
community events, workforce development and employment. The programs we 
have implemented, funded or otherwise supported are summarized in 
Attachment 2. We believe the relationships we have developed with North 
Slope residents are mutually beneficial and provide the basis for 
understanding and working together to solve local concerns.

                              ATTACHMENT 2

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

	State and National Job Creation and Economic Stimulation
    From a socioeconomic perspective, our operations have created 
thousands of jobs for Alaskans; and generated a multitude of 
opportunities for Alaska businesses as well as businesses throughout 
the United States.
                 the challenging operating environment
Arctic Conditions
    A common characteristic of NPR-A developments is the extended time 
between discovery and first oil. Some of this is driven by the North 
Slope's natural environment, and some by regulatory requirements.
    Exploration and development in the Arctic has unique and special 
requirements. Due to the fragile nature of the tundra, exploratory 
drilling outside existing infrastructure is conducted in the winter, 
when the tundra is frozen, using ice roads and ice pads. This ice-based 
infrastructure melts in the summer, leaving no sign it was ever there. 
However, this shortens the exploratory drilling window to about 90 to 
120 days per year. During development, to reduce the surface footprint 
we drill wells from a central gravel pad using extended-reach drilling. 
These factors increase the cost and time required for exploration and 
development compared to land-based operations outside the Arctic. Once 
we announce our intention to develop a discovery, assuming no 
unexpected permitting delays and close proximity to existing 
infrastructure, we can move to production in about 6 to 7 years. That 
time frame includes 3 to 4 years for complex permitting, and 3 years 
for engineering and construction.
    However, in cases like GMT2 where the discovery is far from 
existing infrastructure, development timing depends on first building 
infrastructure out to the discovery area. With our current assumption 
of first oil for GMT2 in 2021, the elapsed time from discovery to 
production will be 20 years.
Regulatory Considerations
    From a regulatory point of view, the state of Alaska has 
implemented relatively efficient processes. Our key permitting 
challenge has been working with the Federal Government, whose 
regulatory framework has been less well defined.
                      federal permitting in npr-a
    In order for development, conservation, and impact mitigation to 
proceed in an orderly manner in the NPR-A, agency decisions must be 
predictable and reasonably durable. Predictability is essential for 
developers, residents, investors, the state of Alaska, the North Slope 
Borough, the Native Corporations, the tribes, villages and residents. 
Since we first entered the NPR-A in 2000, we have seen steadily 
increasing and evolving permitting requirements from the Federal 
Government. At this time, new NPR-A developments must address 265 best 
practices and mitigation measures (see Attachment 3).

                              ATTACHMENT 3
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


	Expanding Requirements
    The steady expansion of standards and mitigation measures was 
complicated by agencies also revisiting previous work, decisions and 
compromises. For example, an Environmental Impact Statement (EIS) was 
performed in 2004 that explicitly evaluated and approved roads proposed 
for planned development of CD5, GMT1 and GMT2. However, as permitting 
of these projects proceeded, we faced conducting a Supplemental EIS 
(SEIS) for each, ostensibly because too much had changed in the 
intervening years. This requirement added time to the development 
schedule, increased costs, and created uncertainty regarding the 
viability of development.
Permitting Obstacles
    Another key area of contention has been difficulty in permitting 
roads. As a company, we will not develop new drill sites and production 
facilities without connection by road to the Alpine infrastructure. We 
firmly believe that the lack of road access poses potential 
environmental risks, particularly in event of a hydrocarbon spill. It 
also causes an expanded development footprint as more infrastructure is 
required if a drill site cannot be reached by road. This in turn causes 
greater emissions from increased infrastructure and air traffic, 
adverse impacts on subsistence hunting due to increased air traffic, 
increased operational difficulties, and higher costs. Following are 
several examples of difficulties in working with Federal agencies to 
permit NPR-A developments.

    <bullet> CD5--The Corps of Engineers initially rejected our 
            application for a ``roaded'' bridge across the Nigliq 
            Channel of the Colville River, which would have effectively 
            prohibited development. After an appeal to the Corps, a 
            permit was later granted for a road-bearing bridge. 
            However, the complications over the permit added delay to 
            the project.

    <bullet> GMT1--This development would not have occurred without 
            construction of the CD5 road and bridge. While a roadless 
            option was part of the BLM's Corps of Engineers 
            consideration in the permitting process, ultimately BLM and 
            the Corps agreed that a road from CD5 to GMT1 was the 
            preferred option. However, BLM required an $8 million 
            monetary payment to mitigate the development impacts. The 
            amount was determined through negotiation, rather than by 
            any specific impacts. Of this payment, $1 million was for 
            BLM's use in developing a Regional Mitigation Strategy 
            (RMS) for the Northeast NPR-A, and $7 million was earmarked 
            for the Village of Nuiqsut. This payment was required 
            without consideration of the funding discussed earlier 
            already being directed to offset development impacts and 
            without consideration of the positive socioeconomic and 
            subsistence benefits of development for residents of 
            Alaska's North Slope. The BLM payment contrasts with 
            mitigation payments to the Corps of Engineers to offset 
            impacts to wetlands which have a measurable basis (e.g., 
            acres of wetlands impacted).

      BLM's draft RMS was opposed by industry, environmental groups and 
            Native groups. A fundamental problem with the Strategy was 
            BLM's lack of a gap analysis to consider all the measures 
            already in place to compensate for and minimize impacts (as 
            noted above, NPR-A developments are already subject to 265 
            existing mitigation measures/best practices). BLM is 
            redrafting the RMS considering the comments received, and 
            we urge that the final document not add unnecessary 
            additional layers of regulation, mitigation, delays and 
            costs.

      Another area of contention with BLM was the agency's excessive 
            time to approve a measurement system, and their adherence 
            to unreasonably rigid measurement standards despite having 
            the latitude under governing regulations to take a speedier 
            and more flexible approach. ConocoPhillips engaged with BLM 
            on GMT1 measurement issues early in 2013, and we submitted 
            an application in December of 2013. We did not get approval 
            until October, 2016. A major reason for this nearly 3-year 
            time scale was long periods of no response from BLM. The 
            design ultimately approved by BLM imposed additional costs 
            on the project in excess of $15 million for a production 
            separator to separate oil, gas and water at the drill site 
            solely for purposes of Federal royalty measurement. After 
            measurement, the fluids will be recombined for delivery to 
            a processing facility where they will be separated and 
            measured again. This is an expensive solution that 
            marginally improves measurement accuracy solely to measure 
            the Federal share of production, which is estimated to be 
            between only 2 to 2\1/2\ percent of total production from 
            the drill site. This approach was not supported by other 
            royalty or working interest owners, nor was it required by 
            state regulators.

    <bullet> GMT2--Permitting is proceeding slowly. BLM took 11 months 
            to issue the Notice of Intent to Proceed (with GMT1 it took 
            25 days), which in turn has delayed the project by 1 year. 
            We are cooperating closely with BLM to help the agency 
            perform the analysis necessary to complete the SEIS to 
            enable an investment decision in late 2018.

Willow
    In recent discussions with BLM, we have been encouraged by their 
desire to begin work on a regional air quality study and an EIS for 
development of Willow. We hope that these studies will be more durable 
than the 2004 EIS conducted for CD5, GMT1 and GMT2. We are also hopeful 
that BLM will pursue a more balanced approach in assessing oil and gas 
impacts by considering the positive socioeconomic and subsistence 
benefits of development. Recent policy changes to eliminate the BLM 
mitigation payments will help facilitate development on all Federal 
lands.
                  access to federal north slope lands
NPR-A
    We would like to see more Federal lands available for leasing on 
the North Slope. Our current acreage position abuts lands deemed 
unavailable for leasing by the 2013 NPR-A Record of Decision. The area 
unavailable for leasing in the Northeast NPR-A area has expanded from 
approximately 600,000 acres in 1999 to more than 3.1 million acres 
today (see Attachment 4). We believe this is more land than needed to 
protect this important wildlife and subsistence resource. We are not 
advocating for any changes to the current 265 mitigation measures/best 
management practices mentioned earlier that are already in place and 
believe that NPR-A development can be done in a safe and 
environmentally sound manner that benefits all stakeholders. We are 
encouraged by Secretary Zinke's recent Secretarial Order calling for a 
review of the 2012 NPR-A IAP through the lens of a better balance 
between development opportunities and protection of environmentally 
sensitive areas in the Reserve.

                              ATTACHMENT 4
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


	Arctic National Wildlife Refuge
    Regarding the 1002 area in the Arctic National Wildlife Refuge 
(ANWR), we believe that expanded access is generally in the best 
interests of the state of Alaska and our country, and that this area 
can be developed in a safe and environmentally responsible manner. If 
the 1002 area was authorized for leasing, we would consider it against 
other opportunities in our portfolio, just as we do with exploration 
opportunities worldwide. That being said, we see tremendous potential 
in NPR-A and remain focused on our projects and exploration plans in 
the Reserve.
       closing--responsible development past, present and future
    ConocoPhillips, through its heritage companies ARCO Alaska, 
PhillipsPetroleum and Conoco, has been an active explorer and developer 
on both Federal and state lands in Alaska, both onshore and offshore, 
from Cook Inlet to the North Slope, for over 50 years. We have a track 
record of environmentally and socially responsible operations. Through 
our investments and those of other oil and gas companies, we have 
generated jobs for Alaskans and created wealth for the state of Alaska; 
Alaskan communities; Native regional and village corporations and their 
shareholders; and Alaskan and Lower 48 businesses. Our business and 
socioeconomic benefits have been positive game changers to the state. 
While we continue to explore and develop oil and natural gas resources 
on Alaska's state lands, Federal lands there represent new 
opportunities for potentially important discoveries. However, there is 
intense competition for investment dollars and Alaska's high cost 
environment puts it at a cost disadvantage to many other locals. 
Unnecessary regulatory actions and requirements that add costs and 
delays could make Alaska non-competitive. The challenge for BLM is to 
provide access to Federal lands under reasonable, predictable, cost 
effective and legally defensible permitting. Additional oil and gas 
exploration and development on Alaska Federal lands will help meet the 
goal of American energy dominance and help keep a key piece of U.S. 
infrastructure, the Trans-Alaska Pipeline, economically viable. We are 
encouraged by recent changes in the Federal Government's philosophy 
surrounding the management of Federal lands, especially in Alaska, and 
believe that these changes will help meet the energy goals of the 
United States and provide economic benefits to Alaskans and the country 
as a whole.

                                 ______
                                 

 Questions Submitted for the Record by Rep. Gosar to J. Scott Jepsen, 
   Vice President, External Affairs & Transportation, ConocoPhillips 
                                 Alaska
    Question 1. In the event that the TAPS pipeline is not transporting 
any oil, would the pipeline right-of-way be revoked? Are there any 
requirements mandating that the pipeline be dismantled within a certain 
time frame if the TAPS pipeline is not transporting a certain amount of 
oil?

    Answer. The term of the Federal Agreement and Grant of Right-of-Way 
is not strictly tied to the transportation of oil. However, following 
any continuous 2-year period where there is a deliberate failure of the 
permittees to use the right-of-way for the purpose for which it was 
granted (construction, operation, and maintenance of a 48-inch 
pipeline), the Secretary of the Interior may initiate proceedings to 
terminate the Right-of-Way.
    With respect to dismantlement, the Federal Agreement and Grant of 
Right-of-Way states that, upon completion of the use of all, or a very 
substantial part, of the Right-of-Way or other portion of the Pipeline 
System the permittees shall promptly remove all improvements and 
equipment, except as otherwise approved in writing by the Authorized 
Officer (designated by the Secretary of the Interior), and shall 
restore the land to a condition that is satisfactory to the Authorized 
Officer or at the option of Permittees pay the cost of such removal and 
restoration.

    Question 2. Are there any environmental requirements, such as 
studies or reviews, you are required to conduct for the state that is 
also required for the Federal process? If so, are you able to save time 
by not having to duplicate your efforts?

    Answer. To date, duplicative environmental studies or reviews 
between the state and Federal Government have not been an issue.

                                 ______
                                 

    Mr. Bishop. Thank you. And thank you all for staying within 
the 5-minute limit. We will see if members of this Committee 
can do so as well.
    We will now turn to questioning. Under Rule 3(d) we impose 
a 5-minute limit on the amount of questions, as well as the 
answers. So, if I cut you off in the middle of an answer, it is 
only because the Member asked you the question too late in 
their 5 minutes. I apologize for that in advance.
    Mr. Wittman, do you want to go through the gauntlet first?
    Mr. Wittman. Thank you, Mr. Chairman. I would be honored to 
do that. Thank you again to our panel members for coming in and 
giving us your testimony today.
    Mr. Glenn, I want to start with you. You very eloquently 
explained how current oil and gas exploration in the industry 
on the North Slope helps to support local communities there, 
specifically our Alaska Native communities, the things that 
they deal with. The revenues that come from the oil and gas 
production there comes in the form of revenues back to local 
communities.
    You talked about how those revenues are used for a variety 
of projects, not only operational costs to sustain those 
communities, but also construction of important infrastructure 
in those areas. Can you elaborate a little bit more about the 
revenue that comes in, how it is used, and how critical it has 
been since its inception to the communities there on the North 
Slope now?
    Mr. Glenn. Sure, thank you. The quality of life changes 
just in a short span of time over the last generation and two 
generations have been startling. If you go back to the time 
when my parents and their parents grew up on the North Slope, 
victims of house fires were common, whole families perishing 
just because snow drifts cross a road and there is no way to 
bring fire protection resources to a house fire. Or there is no 
fire protection at all.
    The health issues, safety issues that are part of a fabric 
of a modernizing community just did not exist. And the only way 
they exist now is because of this stable tax base that has 
introduced itself to our region. There is no economy except for 
that.
    So, with the presence of industry in our region, we created 
a very strong home rule government to attack, first, these 
real, startling life, health, and safety issues. And beginning 
with things like health clinics and fire halls, but extending 
all the way--you know, it is almost like rocket science when 
you have to build responsible water and sewer facilities in our 
communities.
    So, the notion of a quaint, Alaska Native village belies 
the infrastructure costs that are mandated to keep us there. 
Everybody wants the environment to support us for our culture 
and our food, but we need to have a home to come home to. And 
that is provided by the presence of industry in our region.
    Mr. Wittman. Sure. Give me your perspective, too. You 
talked about where the oil and gas industry, through its 
activities and revenues, have brought your community. Tell me 
what would happen if those revenues were to disappear, let's 
say, over the next 10 years. Give me your perspective there on 
what might happen.
    Mr. Glenn. There is an expectation that we have built with 
this great change in quality of life. It has to continue; who 
is going to build the schools for our grandchildren? That whole 
looking-forward attitude. And the only way we can do that until 
something else takes its place is the stable presence of 
industry. In this case, it is the oil and gas industry in our 
region.
    So, as we look forward, we know that someday there will be 
something else. But the whole world knows that someday there 
will be something else. Until that day comes, we have to 
husband this industry in our region, and treat it with the care 
it needs to be sustainable.
    Mr. Wittman. Do you believe the industry, too, acts and 
performs as a good neighbor in your region, and does the things 
necessary to protect communities, but also the natural 
resources that make that region special?
    Mr. Glenn. I think the answer is overwhelmingly yes. The 
strong controls and safeguards that are on the development of 
Arctic resources are sometimes there with our people at the 
table, and the presence of local permitting authorities and 
public comment that exists and comes from our communities. 
Industry behaves in our region, in large part, because we are 
there to help make sure that that happens. And they have stood 
the test of time.
    So, if you leave the pad of development on any of these 
North Slope facilities, there is no halo of dirty environment. 
It is clean, right when you step off the gravel pad.
    Mr. Wittman. Very good. Thank you so much, Mr. Glenn.
    And, Mr. Chairman, I am going to abide by your 30-second 
rule and yield back the balance of my time.
    Mr. Bishop. Ah, you are a gentleman, what can I say?
    Mr. Lowenthal, you are recognized for 5 minutes.
    Dr. Lowenthal. Thank you, Mr. Chairman.
    Mr. Pourchot, in part thanks to the fact that the NPR-A has 
``petroleum reserve'' in the name, some people think the entire 
area was basically designed to be developed for oil to the 
maximum extent possible. But didn't Congress recognize that 
this was not the case, and there were also areas within the 
NPR-A that deserve protection?
    Mr. Pourchot. Ranking Member Lowenthal, yes. The Naval 
Petroleum Production Act of 1976 that transferred management 
from the Navy to BLM did provide for oil and gas leasing in the 
Reserve. It also very specifically provided for protections for 
a number of surface resources, including fish and wildlife, 
environmental subsistence, historic and scenic resources.
    It also authorized the Secretary to designate special areas 
that had these values, and to protect those designations during 
oil exploration in the Reserve. Actually, in 1976, the 
Secretary at the time did designate both Teshekpuk Lake and 
Utukok River Uplands and the Colville River area as special 
areas.
    Dr. Lowenthal. It seems clear, then, that Congress 
recognized that the government had a responsibility to treat 
the NPR-A in a similar manner to other public lands, balancing 
energy development along with conservation and protection. And 
it was not simply an underground gas tank to be developed at 
all costs. That is really what I was saying. There was this 
balancing act.
    I also want to know, Mr. Pourchot, that the Obama 
administration approved the Greater Moose's Tooth Unit 1 
development in 2015, which was the first development approved 
after the finalization of the AIP in 2013, which you mentioned. 
In applying for the project, ConocoPhillips requested a waiver 
of one of the provisions of the AIP that would have protected 
an important subsistence use area for the community of Nuiqsut.
    The permit granted that waiver. But in doing so, there was 
an acknowledgment by the BLM that there would be significant 
subsistence, socio-cultural, and other impacts that led 
ConocoPhillips to volunteer additional mitigation funding, and 
it caused the BLM to direct the preparation of a regional 
mitigation strategy to address the foreseeable impacts from oil 
and gas development.
    Can you speak to the importance of mitigation measures in 
addressing the potential impacts of oil and gas development in 
the Reserve?
    Mr. Pourchot. Yes, sir. Mitigation is very much a part of 
the IAP, in terms of its stipulations, its monitoring 
requirements, and best practices. And many of the impacts that 
were identified in the EIS and the planning process were 
subject to those kinds of mitigations.
    But I think what BLM found was that, in some cases in the 
reference you mentioned, there were impacts that could not be 
fully mitigated, and that there were also perhaps cumulative 
impacts of successive developments that occur. And I think they 
were viewing the mitigation you speak of as trying to address 
in other ways, or to compensate for unavoidable impacts, or 
cumulative impacts.
    Dr. Lowenthal. Mr. Jepsen, do you know what the total 
footprint, including roads and drill pads, for the CD-5 and the 
GMT-1 and the proposal for GMT-2 is?
    Mr. Jepsen. It is approximately 185 acres. We are about 
.0008 percent of the area of NPR-A.
    Dr. Lowenthal. Yes, we looked it up. We came up with a 
little different, but almost the same, 196 acres. Do you know 
the total length of the roads that run to these projects?
    Mr. Jepsen. They are approximately about 16 miles from CD-5 
over to GMT-2, when GMT-2 is built. As I recall, it is 
approximately 8 miles from the spine road over in Alpine over 
to CD-5--not that entire length of road is within the NPR-A.
    Dr. Lowenthal. Mr. Chair, I have a few more questions, so I 
will wait. I will yield back now.
    Dr. Gosar [presiding]. I thank the gentleman and I now 
recognize the gentleman from Colorado, Mr. Lamborn, for his 5 
minutes.
    Mr. Lamborn. Thank you, Mr. Chairman, and thank you for 
having this hearing. And I will just jump right in; I have a 
lot of questions.
    Mr. Jepsen, I understand that TAPS is currently running at 
25 percent capacity, representing an almost dangerously low 
level of throughput. Alyeska Pipeline Service Company has had 
to go to great lengths to keep the pipeline running, and has 
even decreased the number of pumping stations from 11 down to 
4. How would increasing production improve TAPS operations and 
provide more stability for the oil and gas industry?
    Mr. Jepsen. If we had more throughput in TAPS, obviously it 
is going to take away some of the concerns that we have right 
now about low flow. We start getting it down much below 500,000 
barrels a day, we enter a region which we call the low-flow 
region. And the problem we have there is we have long periods 
of cold weather, and the pipeline is not flowing, you might 
have issues with wax deposition and potentially restarting the 
pipeline.
    Alyeska has done a very good job of working through that. 
Currently, we are looking at about 300,000 barrels a day as 
being kind of that limit. We are going to have to start doing 
something significantly different.
    If you have more oil flowing down the pipeline, obviously 
operations become easier, the costs to operate on a per-barrel 
basis go down. And because the royalties and severance tax that 
we pay--and royalties for both Federal and state purposes are 
based upon the net-back price up to the North Slope--if we 
reduce the cost of shipping the oil through the pipeline, it 
means more revenues for the state, more revenues for the 
Federal Government.
    Mr. Lamborn. OK, thank you. Now, it appears that CD-5, GMT-
1, and GMT-2, which Representative Lowenthal just referred to 
as well, are each roughly $1 billion projects, and they will 
each ultimately produce somewhere around 20,000-30,000 barrels 
of oil per day, helping to fill up TAPS. What is the potential 
for capital spending, jobs, and oil production with your 
company's Willow discovery in NPR-A announced earlier this 
year?
    Mr. Jepsen. Willow is a much larger discovery than GMT-1, 
CD-5, or GMT-2. Willow has potentially as much as 300 million 
barrels recoverable--not oil in place, but recoverable 
reserves. We are looking right now at potentially building a 
new stand-alone facility in order to accommodate the production 
that we see possible at Willow.
    That will be a multi-billion-dollar facility, requiring 
thousands of people at peak construction to construct it. It 
will generate not only opportunities for businesses in Alaska, 
but also the Lower 48--not everything that we require for these 
large projects can be manufactured or built in Alaska--and we 
will probably have several hundred permanent jobs if we go down 
that path.
    Right now we are still in the evaluation phase, and we are 
beginning the permitting process for Willow.
    Mr. Lamborn. OK, thank you.
    Mr. Dixon, I have a question for you. What do energy jobs 
mean, personally, to each of your rank and file members of your 
labor union?
    Mr. Dixon. Well, starting with the workers on the North 
Slope, we have contracts with contractors that get the bids for 
some of these jobs with ConocoPhillips, BP, and Exxon. It means 
good-paying jobs for the ones on the North Slope. We have 
negotiated hourly rates going into healthcare plans, and also 
hourly rates going into pension plans, and training money going 
in hourly, too, so that if people wanted to upgrade their 
skills they could come in and train and get that to further 
their career.
    We also have two apprenticeship programs. One is the 
construction driver program and one is the surveyor program. 
These individuals roughly go through 8-10 weeks of classroom 
time and hands-on training. We have buy-in through the 
companies that we work for that give them the opportunity to go 
to work.
    There is a difference between somebody going to school and 
then looking for a job than somebody that is getting trained, 
going to school, and going right to work, a big difference. And 
we provide that for our apprentices, through our contractors, 
and through the work that we are talking about now, like GMT-1.
    It is very big for our workforce, not only just on the 
North Slope, but the trickle-down effect to all these other 
industries that we represent--it touches them, too.
    Mr. Lamborn. And for the working people in the union, how 
do these energy jobs compare to other jobs available in Alaska?
    Mr. Dixon. It depends. The North Slope workers that do the 
pipeline and the civil work are reliant pretty heavily on new 
discoveries, new work up there to keep going, making a living 
for their family. That is why we want to see things keep going 
and developing.
    Mr. Lamborn. All right. Thank you.
    Mr. Chairman, I yield back.
    Dr. Gosar. I thank the gentleman. We now recognize the 
gentlewoman from Massachusetts, Ms. Tsongas, for 5 minutes.
    Ms. Tsongas. Thank you, Mr. Chairman. Our Nation's public 
lands protect some of the natural and historic places that have 
shaped and defined who we are as a people and a country, and 
would not have been protected without support from the Federal 
Government.
    Though state lands are often managed to maximize 
profitability, public lands are managed by the Federal 
Government for a wide range of activities and on behalf of all 
Americans. Those activities include recreation and sportsmen's 
activities, energy development, protecting open spaces that 
provide wildlife habitat, clean water, and clean air, and what 
we call a multiple-use mandate.
    As stewards of these lands, we must work to find a balance 
between compelling at sometimes competing interests, and make 
sure that the Federal Government is a good neighbor to local 
communities. There are some places in our country where the 
highest, best use of public lands is conservation and 
recreation. And one of those places is the Arctic National 
Wildlife Refuge.
    The Arctic Refuge is one of our Nation's crown jewels, and 
it deserves to be protected for generations to come. As the 
Ranking Member referenced, the area is home to caribou herds, 
polar bears, gray wolves, and numerous other nationally 
significant animal and plant species unique to the region. It 
also supports subsistence activities for Native Alaska 
communities, and is open to recreation such as hunting, hiking, 
fishing, and wildlife viewing.
    I am strongly opposed to any attempts by the Administration 
or this Congress to open up this national wildlife refuge to 
drilling, which would permanently degrade this natural wonder, 
and could jeopardize Alaska's $9.5 billion outdoor recreation 
economy. I am sorry that we don't have representatives from it 
here today to talk about the ways in which they contribute to 
the economy.
    Mr. Pourchot, in 2015, the Fish and Wildlife Service 
completed its revision of the comprehensive conservation plan 
for the entire Arctic region known as the CCP. The CCP, and 
then subsequently President Obama, recommended that Congress 
designate the Coastal Plain and other areas in the Refuge as 
wilderness, our Nation's highest level of federally protected 
land.
    Can you describe more the values on the Coastal Plain that 
Interior looked at in developing the CCP? Did the 
Administration focus on long-term or short-term benefits to the 
American people?
    Mr. Pourchot. Congresswoman Tsongas, thank you very much 
for the question. You mentioned a number of the values that CCP 
looked at and found for the Arctic Refuge.
    I would add to that that the Coastal Plain is a very 
integral part of a much larger ecosystem, stretching from the 
south side of the Brooks Range and way to the east and 
protected areas and adjacent areas in Canada, and that the 
Coastal Plain here is very narrow, much narrower than further 
west. And, in a way, some of the wildlife and the values get 
condensed and become very much an integral part of upper 
watersheds in that area.
    It is well known that one of the main calving areas of the 
porcupine caribou herd, which now numbers almost 200,000 
animals and is shared with Canada in its habitat, calve on the 
Coastal Plain there, in the Arctic Refuge.
    Other things that have changed a little bit, it has become 
a more important denning area, onshore denning area, for 
threatened polar bear, as sea ice melts and thins in the 
Beaufort Sea. It is also a designated important bird area for 
waterfowl and shorebirds across the entire Coastal Plain there. 
The caribou, I should mention, are very, very important to the 
subsistence and culture of the Gwich'in people that are 
resident on the south side of the Brooks Range.
    Ms. Tsongas. This recommendation to designate the Coastal 
Plain as a wilderness is in stark contrast to the 1987 
Department of the Interior study that recommended fossil fuel 
development on the Plain. So, what have we learned in the past 
30 years that confirms that this area is too special for 
drilling?
    Mr. Pourchot. Of course, one might argue that there was a 
mistake made 30 years ago in the recommendation. But I think 
that we have seen worldwide, as well as in Alaska, in continued 
development, continued search for natural resources in the 
Arctic circumpolar, and that fewer and fewer non-developed 
areas remain, and particularly ones like the Arctic Refuge that 
has been a refuge since 1960 and was designated largely 
wilderness in the 1980 Alaska National Interest Lands 
Conservation Act. So, I think the prominence or the uniqueness 
of the Refuge has taken on even more significance in the last 
30 years.
    Ms. Tsongas. Thank you, I yield back.
    Dr. Gosar. I thank the gentlewoman. The gentleman from 
Utah, the Chairman for the Full Committee, Mr. Bishop, is 
recognized.
    Mr. Bishop. Yes, let me apologize to the Committee and the 
witnesses first, because I am going to have to leave to go to a 
3:30 meeting that I have. So, I am going to ask the questions 
and then just head out, but I do appreciate you all being here.
    I recognize that mistakes have been made. We will determine 
which were the mistakes and which were the proper decisions in 
history.
    In 2013, when the integrated activity plan was put into 
place, I think it was mentioned by Mr. Lowenthal, that about 11 
million acres were unavailable for oil and gas leasing. So, let 
me ask all of you a couple of questions.
    Mr. Glenn, in your testimony, and also in some of the 
answers here, you talked about how Federal policies that closed 
lands around Native communities have a detrimental effect on 
indigenous people. Can you just explain a little bit more in 
detail about the conservation withdrawals, how their 
restrictions impact Native communities?
    Mr. Glenn. Thank you for the question, Mr. Chairman. It is 
our experience that conservation withdrawals, no matter how 
well intended, often have consequences that were unpredicted, 
yielding areas off limits for any purposes, even those beyond 
which maybe the conservation area was designed to protect 
itself against.
    So, what happens in our region, you start to get a multiple 
overlapping of conservation or other related withdrawals that 
paint us into a corner in our own region. And the presence of 
the resource limits itself. Oil and gas is not continuous 
everywhere underneath in either the ANWR or the National 
Petroleum Reserve, but it is where it is.
    So, our approach, instead of painting ourselves off limits 
of the entire region, is to allow exploration to continue, and 
then make responsible decisions about how that development 
should take place. That gets thwarted when carte blanche, right 
before everything else, you start to just section off whole 
areas of the region as off limits. That is the first problem.
    The second problem is, even in areas where development has 
been allowed, sometimes the delay introduced by--I won't say 
even permitting stipulations, I will just say by an approach 
that is intended to delay development of a reasonable project 
and responsible project has strong implications for the 
economics of the region.
    The short way to think about it is production delayed is 
production denied. I mean the real effect is felt in the bottom 
lines of the Native corporations, and the dividends that we 
distribute to all of the Native people, all throughout the 
state.
    Mr. Bishop. You have a unique perspective as part of the 
Arctic Slope Regional Corporation. Does the Arctic Slope 
Regional Corporation support Secretary Zinke's decision to 
reassess the integrated activity plan?
    Mr. Glenn. Yes, we strongly support it.
    Mr. Bishop. So, what consideration should the Department 
take as it makes this reassessment? What elements should be 
part of that?
    Mr. Glenn. The three areas that I think should be looked at 
are, as Mr. Jepsen talked about, first is the pace of 
environmental review, the pace of administrative processing 
through which any application goes through inside the BLM. When 
it takes 18-24 months to develop what is a pretty low--
reasonably like a step-out project of a much larger project, 
you start to question what is the cause for the pace. So, one 
is the pace of administrative reviews.
    Second one would be take a look at what is being mandated 
for mitigation, and question whether or not you are getting 
multiple bites at the apple when you are forcing an industry to 
over-mitigate itself when there is a bunch of voluntary 
mitigation going in.
    And finally, we have a long history of oil and gas 
exploration, beginning with the Navy in the 1940s. And the 
practices there, they learned as they went. And you can still 
see the scars on our land from the Navy exploration efforts in 
the 1940s. They learned a lot about how to operate, but as they 
learned on the fly, there were some environmental effects. We 
should not burden today's responsible operators to atone for 
the mistakes that were made during the exploration days in the 
1940s. The mitigation should be balanced to the development 
that is at hand, rather than for the ones in the past.
    Mr. Bishop. I appreciate that. I just wish the concerns you 
are mentioning were unique to Alaska. Unfortunately, we find 
them in other parts of the Nation at the same time.
    Mr. Jepsen, I only have a few minutes, but I appreciate the 
fact that you gave us four specifics that we can work on in 
your oral testimony. That is extremely helpful. I am assuming 
those were not put in some kind of priority basis.
    And Mr. Dixon, thank you for being here and speaking out 
for the people who do the work, who are on the ground. Your 
testimony gave a sense of reality to the situation that is 
oftentimes confused as we pontificate in these levels, and 
brings some of the perspective that is useful.
    And with my thanks for all of you for being here, very 
much, this is an important hearing, it is an important topic--
Mr. Chairman, I apologize for leaving. That is something I hate 
to do, but I have to go.
    Dr. Gosar. Well, I appreciate the Chairman for indulging. 
With that, I recognize the gentleman from northern Virginia, 
Mr. Beyer, for 5 minutes.
    Mr. Beyer. Thank you, Mr. Chairman. I would also like to 
thank you all for coming so far to talk with us about this.
    Mr. Dixon, in your testimony, you talked really eloquently 
about the overall impact the oil industry has for the people of 
Alaska, and basically made the case that this is sort of sine 
qua non for the folks there.
    But I noticed also Mr. Glenn's testimony says the original 
Prudhoe Bay oil field was estimated to contain about 9.6 
billion barrels of recoverable oil, and has already pumped 17 
billion--so almost double.
    Mr. Dixon, you talked about oil prices being around $25 a 
barrel right now. So, help me understand why the thing has 
fallen from 2 million to 500,000. Is it the fact that oil is 
only $25, rather than $40 or $100? Is it that the supply is not 
there? Why has it fallen by 75 percent, leading to all the 
problems about the viability of the pipeline in the years to 
come?
    Mr. Dixon. The reason why it has fallen is it is an aging 
field. The Prudhoe Bay and Kaparak fields have been around, 
developing for 30-plus years. The oil that is coming through 
there now is thicker. We are having temperature changes because 
of underground, where it is, and it is colder, and that is 
where the flow is. The amount of oil is not there as much as it 
used to be.
    Mr. Beyer. That is very helpful. So, you are looking at 
ANWR, with 7.7 billion. If you went through almost 18 billion 
in the last 30 years, ANWR is 10 years to empty that?
    Mr. Dixon. I would not speculate on what the time frame 
would be.
    Mr. Beyer. Yes, well, it is similar. In Mr. Glenn's 
testimony, too, you talk once again, very nicely, about how our 
people depend on a healthy Arctic environment to support 
subsistence species, but also depend on a healthy energy 
industry, and that these dependencies appear to be in conflict, 
but many on the North Slope view this a totally appropriate 
one.
    Mr. Pourchot, Mr. Glenn talks about how many in Congress 
are under the misguided notion that onshore Arctic development 
somehow harms the fish, wildlife, and waterfowl resources 
there. Why is that a misguided notion? Or is that actually a 
guided notion?
    [Laughter.]
    Mr. Pourchot. I think it is mixed, and I think people show 
lots of photographs of caribou in and around the pipeline and 
anecdotally say there is not much impact on wildlife from 
development.
    I think there, at the same time, are some very good studies 
that show specific impacts with specific populations. Not all 
species react the same to development. But I think, in the case 
of the National Petroleum Reserve-Alaska and its resources, I 
think I would give you three examples where there are good data 
showing adverse impacts on calving: caribou, for one; molting 
geese, for two; and a very specific species, yellow-billed 
loons, which has been an endangered species candidate, their 
nesting is very susceptible to disturbance.
    So, I think you have to look, species by species, but there 
are certainly research and studies showing adverse impacts on 
wildlife from development.
    Mr. Beyer. OK, thank you.
    Mr. Jepsen, in your ConocoPhillips you talk about how, in 
wildlife protection, that you monitor the distribution of the 
Arctic herds, that you do surveys on aircraft on the polar bear 
den detections. Is there anything you do besides study? Is 
there any constructive things that ConocoPhillips is doing to 
protect these species, besides monitoring and surveying?
    Mr. Jepsen. Probably the biggest thing that we do to 
minimize our impacts is we avoid areas where we have 
concentrations of wildlife, where our activities might bother 
them. So, for example, the polar bear. A very healthy 
population of polar bears on the North Slope. However, if we 
have a den, and we find out where the dens are, we route our 
operations around them so we do not disturb the polar bear.
    Same thing with some of the nesting sites that Mr. Pourchot 
mentioned. We locate those nesting sites and we make sure that 
our operations do not impact those nesting sites.
    So, it is back to, really, a lot what Mr. Glenn said, which 
is there is some tension here, obviously. It is a sensitive 
environment up there. We all recognize it. We all try to do the 
things that we can do to minimize our impacts. Some of it is 
avoidance. In fact, much of it is avoidance right now, to try 
to do the things to minimize industry's impact on the wildlife, 
on subsistence, and on the resource on the North Slope.
    Mr. Beyer. Great. Thank you very much.
    Mr. Chairman, I yield back.
    Dr. Gosar. I thank the gentleman. The gentleman from 
Alaska, Mr. Young, is recognized for 5 minutes.
    Mr. Young. Thank you, Mr. Chairman, for having this 
hearing. Most of the questions have been asked.
    Mr. Jepsen, talking about the draft regional mitigation 
strategy at NPR-A--stay away from ANWR a moment--the BLM issued 
in late 2016, you referred to a fundamental problem with the 
strategy being BLM's lack of gap analysis to consider all the 
measures already in place to compensate for far and minimized 
impacts. What does that mean?
    Mr. Jepsen. Congressman Young, what we are specifically 
referring to there is that when that draft RMS came out, it 
made the assumption that everything we were going to do is have 
major socio-economic, environmental justice, and subsistence 
impacts.
    We actually take exception to that, and we wrote a fairly 
lengthy comment on that back to the BLM. In fact, the city of 
Nuiqsut and Kuukpik Corporation, the Native village corporation 
for the Village of Kuukpik, took a pretty significant exception 
to the BLM's characterization of the impact of GMT-1 in those 
areas.
    In this regional mitigation strategy, the BLM was setting 
up a higher key of impacts and setting up a cost schedule 
where, if a developer wanted to go out and pursue a project, 
they were going to have to pay a certain amount of money, or 
make contributions to certain sorts of infrastructure in the 
Village of Nuiqsut or potentially elsewhere, to offset these 
``impacts.''
    Mr. Young. And there is no law about that. That was done by 
the BLM?
    Mr. Jepsen. That is correct, sir.
    Mr. Young. See, Mr. Chairman, I am bringing this up, it was 
extortion. Extortion. The agency itself said that they had to 
pay a fee to get their permits.
    And Mr. Glenn, you are looking at that phone of yours, and 
I am going to take it away if you keep it up. Right now.
    [Laughter.]
    Mr. Young. I am pleased to see both you and Pat being 
there. The reflection off both of your heads is marvelous.
    [Laughter.]
    Mr. Young. So, I am just saying, with all due respect, 
people of the Slope support this development. And I challenge 
you, Mr. Pat, on the studies you said were made, I want to see 
them and who wrote them. I think that is crucially important. 
Because when you say it is affecting the wildlife and affects 
the fish and game, has impacted upon them, I think it is pure 
nonsense. Now, you may disagree with me, but I think it is 
nonsense.
    But when you make that statement, I want those studies in 
front of us to find out who made them, who paid for them, and 
how they were done. Because I know I have been up there a lot. 
I see more caribou now than I have ever seen. That has been a 
myth the whole time.
    And, as long as Mr. Glenn, and Tara in back of you, work 
together with the companies that will do this exploration work, 
the village that lives there--we give them 92,000 acres of 
land, and they are precluded from drilling on it if they wish 
to do so--I think it is time for us to start listening to 
people that live there and work there.
    If they think it doesn't hurt the subsistence, then that is 
who we should listen to, not somebody out of San Francisco or 
somebody from one of these organizations that their whole 
career is to stop all types of development that help the 
individuals that live in that area. It is wrong. And we sit 
here and listen to this, very frankly, Sierra Club--I could go 
on for a long time--everything else, Save Alaska, the 
administrations we cannot move on things.
    There is another issue that they want to do, and that is 
have no development. And we can use it together, we can have 
our subsistence and we can have economy as the North Slope has 
done to educate their kids and provide them--I call it a better 
way of living, because that is what they want.
    Mr. Chairman, I thank you for these hearings. And again, I 
talk to my good friend, Mr. Gary. Thank you for the Teamsters. 
I really think we have a responsibility to generate economy in 
the state of Alaska, and as we did in the pipeline. Very good 
years. And it is a marvelous construction job, that pipeline. 
For those that have not seen it or studied the history of it, 
you should do that. Forty years, 17 billion barrels of oil 
through that pipeline. The major spills were minor, some spills 
were mostly man-made.
    One little short story, I had a gentleman that blew the 
pipeline, or tried to do so. He was in my office the day before 
and I threw him out, so he decided to blow up the pipeline. But 
if you guys knew he was going to do that, I wouldn't have 
thrown him out.
    [Laughter.]
    Mr. Young. But anyway, this issue is development, 
resources, subsistence, gaming, wildlife. It is all compatible. 
Look at the geese out here that fly around and land down here 
at the monument every morning. Very compatible. Play golf. Step 
in it once in a while. You will understand it more.
    Thank you, Mr. Chairman.
    Dr. Gosar. I thank the gentleman. The gentleman from 
Florida, Mr. Soto, is recognized for 5 minutes.
    Mr. Soto. Thank you, Mr. Chairman. I know that there was a 
lot of work put into the National Petroleum Reserve-Alaska 
plan, and it recognized a great balance between making sure 
that these resources are available and protecting our wildlife. 
It looks like about 52 percent of the National Petroleum 
Reserve is open for leasing, about 11.8 million acres--a firm 
estimate is 72 percent of the oil is estimated to be there, 
about 549 million barrels.
    I guess my first question is to Mr. Pourchot. How much of 
that land is actually leased already?
    Mr. Pourchot. Congressman, I am sorry, that were active 
development within----
    Mr. Soto. Yes, of the over 11.8 million acres that are 
available already, I am trying to determine how much of that is 
leased already before we look at other areas.
    Mr. Pourchot. Lease sales have been held fairly regular 
since 1999, including annually since 2011. There has probably 
been 46 million acres or so offered. Most years, only a 
fraction of that actually receives bids and is leased on. I 
think probably 5.6 million acres have been leased.
    Interestingly enough, a lot of that over the same period, 
leases have actually been relinquished or have expired.
    Mr. Soto. So, we basically have half of it that has been 
offered to lease already, but the other half still has not been 
leased yet. And it looks like there is 48 percent of the 
Reserve that remains protected, which is about 11 million 
acres. Seven million are in the Utukok River Uplands Special 
Area, and the USGS has already stated that there is not much 
oil in that area. And I believe that was in your report, too, 
Mr. Pourchot.
    Then there is another 3.1 million acres that are in the 
Teshekpuk Lake area, which I believe you have already stated is 
key for caribou, waterfowl, polar bears, and others. What would 
be the repercussions if we allowed drilling in that lake area, 
Mr. Pourchot, on that wildlife?
    Mr. Pourchot. Well, I think the Teshekpuk Lake area, 
particularly the area that is closed to oil and gas leasing, is 
probably the most biologically productive and important area in 
the NPR-A. The special area incorporates most of the important 
calving area of the herd, insect relief area, and key migration 
routes of it.
    It also has a very key area for molting geese, about 
100,000 geese are there every year, molting, including probably 
30 percent of the West Coast brant.
    Mr. Soto. Thank you, Mr. Pourchot.
    And Mr. Glenn, Mr. Jepsen, is this all about drilling in 
the Arctic National Wildlife Refuge, or is that what this is 
about, at the end of the day?
    Mr. Jepsen. This is Scott Jepsen. We are supportive of the 
efforts by Congressman Young and the rest of the delegation to 
open the 1002 area, but that is not where our focus is right 
now. Our focus is on NPR-A, not ANWR.
    Mr. Soto. Would you say that is about right, Mr. Glenn, 
too, that you all are not looking to drill in the Arctic 
National Wildlife Refuge just yet?
    Mr. Glenn. I would say differently. Thank you for the 
question, Congressman. It is not all about ANWR and it is not 
not all about ANWR. But while we are thinking about it, if you 
are going to look at the National Petroleum Reserve and 
consider multiple uses--for example, it is not just a ``gas 
tank,'' but also hosts valuable habitat--then why don't we 
consider the Arctic National Wildlife Refuge in the same light?
    That is, it is not just a wildlife refuge that should 
remain off limits, but also can host important exploration of 
the Native-owned lands that exist there that have been slated 
for exploration and development. Thank you.
    Mr. Soto. Well, that is reassuring, at least, to hear from 
you, Mr. Jepsen, that we are looking more at the other areas, 
and not at the Arctic National Wildlife Refuge, a place that, 
much like in the Everglades, where I have opposed oil drilling 
getting near to the water there in our own home state, 
someplace that is not just any one state's land, but a national 
treasure that we all look to.
    So, these are things we need to keep in mind as some on the 
Committee are looking to open up lands, that that is not the 
focus, at least, for right now. And that is of reassurance as 
we look to these other areas.
    I yield back.
    Dr. Gosar. I thank the gentleman from Florida. The 
gentleman from Texas, Mr. Gohmert, is recognized for 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman. And I appreciate the 
witnesses being here.
    The mention of comparison between the Everglades and 
Alaska, it is something that has mystified me, as we went 
through the 1970s, and I am not sure how long it went into the 
1980s, but that there was absolutely no question we were 
experiencing something called global cooling. And I think it 
was on the cover of some magazines.
    But that just did not make sense to me. I didn't see the 
world ending with global cooling. Oh, well, it is probably 
1,000 years out or so, but we are at the beginning stage. And 
then it was global warming. And then, when global warming 
turned out to maybe not be as accurate as people thought, went 
to climate change. So, no matter what happened, you could say, 
``See there? Climate change.''
    But when the planet cools, food production goes down. That 
is what made it so scary in the 1970s. If the planet cooled, 
then we would not be producing food at the same levels, massive 
starvation. Whereas, there are studies that indicate if the 
planet continues to warm, if it did more than warm for a 30-, 
40-year cycle, then one of the outcomes would be additional 
food production.
    Mr. Jepsen, I just want to make that distinction. In the 
Florida Everglades, you have an incredible array of living 
organisms. In Alaska, especially the 1002--that, by the way, 
was set aside by a very, very, very liberal Congress, Democrats 
in Majority in the House and Senate, and a President that went 
by the name Jimmy, Jimmy Carter--and they set that aside 
because that appeared to be an area where nobody would go about 
complaining that there was going to be a problem.
    But now, Mr. Jepsen, could you tell us the difference 
between the Alaska State environmental regulations process and 
the Federal, just a brief thumbnail?
    Mr. Jepsen. Congressman, I will give you a very high-level 
perspective on it.
    When it comes to dealing with the Alaska Department of Fish 
and Game, Alaska Department of Environmental Conservation, we 
are dealing with a regulatory framework that is fairly stable, 
it is predictable, it does not change very much. We understand 
how long the processes will take, we understand what is 
required to get the permit.
    When it comes to dealing with the Federal Government, 
particularly the BLM, that has not been the case. As we have 
tried to proceed with some of these projects that I have 
described earlier, the process changes, the goal posts move, 
the costs are not predictable, the timing is not certain. It is 
pretty much night and day between dealing with the two 
agencies, between the two regimes, state versus Federal, in 
Alaska.
    Mr. Gohmert. Well, maybe you need to take a hint from 
British Petroleum, and get people in like they did in the 
Clinton administration to put some language in to make some 
billions, and then get them out, back in British Petroleum 
during the Bush years, and then back in the Obama years to help 
make them more money. See, you all apparently are not sending 
your employees in to work for the government to help you out 
like others have.
    But Mr. Dixon, at its peak, the Trans-Alaska Pipeline 
system transmitted 2.1 million barrels a day. And I know there 
has been discussion about that. But what are the potential 
economic impacts of decreased transmission, even beyond where 
we are now?
    Mr. Dixon. I am not understanding what your----
    Mr. Gohmert. We have decreased it down, we are not at 2.1 
million barrels a day, as I understand. What are the 
consequences if we continue to decrease that production?
    Mr. Dixon. I am sure Mr. Jepsen knows more than I do about 
that, but the threshold of 300,000, I believe, is the amount 
that would start getting into the kind of scary part of that 
pipeline. With all the stuff we have talked about with the 
temperature----
    Mr. Gohmert. Yes, being cooler, that slows it down, and 
what not----
    Mr. Dixon. Cooler, yes, so it is hard to get that oil to 
travel down the pipeline. And that is why Alyeska Pipeline 
Service Company--I believe it is somewhere around pump 5 or 
pump 7 has that looping system that they have done to reheat 
that oil so it will flow better.
    But it is a big problem for them. The more oil development, 
the more oil we can put through that pipeline, the better it is 
going to be. It is going to be warmer and help mitigate that, 
help with that problem.
    Mr. Gohmert. Mr. Chairman, could I ask one more question?
    Dr. Gosar. I will let you have a little bit of my time.
    I thank the gentleman for yielding. The gentleman from 
Georgia, Mr. Hice, is recognized for 5 minutes.
    Dr. Hice. Thank you, Mr. Chairman. I know we have been 
around the horn, probably, with all the questions. This may 
have been asked; if it has, please forgive me.
    I am impressed with the technology, the innovations that 
have come forth in the last several decades, both to increase 
our production and, at the same time, keeping an 
environmentally friendly footprint. Mr. Jepsen, I just want to 
ask you how that drilling technology has changed since oil and 
gas operations first started in the 1960s, 1970s, back in 
there. What kind of innovative technology changes have 
occurred?
    Mr. Jepsen. The change in technology has been rather 
dramatic. When we first started developing Prudhoe Bay, we were 
drilling it off of 65-acre pads, and we could maybe develop 3-4 
square miles off of an individual pad. At Alpine, right now, we 
have about a 12-acre pad, and we can develop about 55 square 
miles.
    We have recently contracted for what we call an extended-
reach drilling rig. With that drilling rig, we will be able to 
develop as much as 125 square miles from this same drill site.
    And what is really kind of mind-boggling about all that is 
that we can drill this well, drill it 30,000 feet out, away 
from the existing drill site. We can put it in the zone about 
7,000 feet down, and then we can drill it horizontally out for 
the next 23,000 feet, and keep it in a box that is about 10 
feet square, and keep it in that box that entire distance. That 
was not possible 30, 40 years ago.
    That is one of the differences, really, right now, in terms 
of what we can do to extract more oil out of some of these 
reservoirs. It gives us the ability to go into reservoirs that 
probably would not have been economic, with the technology that 
we had 40 years ago. Today we can drill with one well what 
might have taken five or six wells with 40-year-old technology 
that makes these locations, these reservoirs that we are 
developing right now, much more economic.
    We have also done a lot of other things, in terms of 
logging technology, being able to basically take measurements 
while we drill. We have also developed what we call coil tubing 
drilling technology. So, rather than using a big, stiff piece 
of pipe that is this big around, we use a piece of tubing that 
is on a coil like your garden hose, about 3 inches, about this 
big around. We can go into older reservoirs, we can kick off, 
and we can drill out into zones that we find bypassed oil in. 
It makes a huge difference, in terms of what we are doing right 
now to increase recovery in existing fields like Kuparuk and 
Prudhoe Bay.
    Dr. Hice. Now, some of this is happening in the North Slope 
area, too?
    Mr. Jepsen. Everything I just described is happening in the 
North Slope.
    Dr. Hice. OK. Well, the last question, then. I am assuming 
this decreases the environmental footprint while increasing 
production?
    Mr. Jepsen. Absolutely. It decreases it pretty 
significantly. If you are drilling 65-acre pads versus 12-acre 
pads, you are developing a bigger area from a smaller pad. That 
significantly reduces the amount of gravel that we have to put 
on the surface. So, it has a very substantial impact.
    We do some other things, as well. We try to locate valves 
so we don't have to put access roads off of our existing gravel 
roads. At Alpine, the airport also serves as a road. It is not 
a separate air strip, separate from our facilities up there. 
So, lots of things we do along those lines to minimize our 
footprint.
    Dr. Hice. OK. Well, thank you very much. That was very 
insightful. Mr. Chairman, I yield.
    Dr. Gosar. I thank the gentleman. Now I will come to my 
round of questioning.
    Mr. Dixon, I want to highlight something that you said that 
has not really been picked on. A lot of your members are 
employed in the oil and gas industry. Can you describe the type 
of jobs that those members actually do in the industry?
    Mr. Dixon. Yes. We have heavy equipment, low-boy drivers 
that haul equipment around from Prudhoe Bay to Kuparuk, all 
over. We have warehousemen, we have expediters, we have 
logistics. Our general foremen on pipeline jobs are basically a 
logistics coordinator for all equipment, men, and materials 
moving on these jobs.
    That is pipeline. And pipe stringing, that has to go with 
the pipeline jobs.
    On our civil jobs we have--with Nanook we have B-70s, which 
are big, earth-moving vehicles. I believe it is around 40-50 
yards each one holds. We also have maxi-hauls, which are big 
tractor-trailer end dumps.
    To the large degree, in a nutshell, truck drivers, 
warehousemen, and logistics.
    Dr. Gosar. And what kind of----
    Mr. Dixon. And surveyors, sorry.
    Dr. Gosar. Yes. What kind of background and education is 
provided just to get those jobs? What kind of process do you go 
just to get those jobs?
    Mr. Dixon. Well, if it is people that have come into our 
union, we get their resumes, we do background checks on what 
their qualifications are and where they got them from.
    Others are going through the apprenticeship program. 
Developing the apprentices, we have found the contractors 
actually like the apprentices. They have better skills than 
some of the people that have not gone through our 
apprenticeship program that are journeymen.
    So, it is a combination of all that. For the surveyors, we 
have a competency test that they have to take. For a party 
chief, chief of parties, associate party chief, and a 
chairman's test, to make sure that they have the qualifications 
to go up there.
    Dr. Gosar. So, pretty rigorous background, right?
    Mr. Dixon. Yes, pretty good.
    Dr. Gosar. Not everybody makes it?
    Mr. Dixon. No. Some I get in my office that are not too 
happy because they don't seem to be qualified. And I have to 
tell them that.
    Dr. Gosar. And in your experience, how are they able to 
ensure that the environment and species are taken care of near 
the pipelines, the product, the process? How do they go about 
that?
    Mr. Dixon. Well, since GMT-1 was the most recent job here 
this winter, I will give you an idea. Even all the years I 
worked out in the pipeline and the mainlines and the North 
Slope, for an example, the GMT-1 job, before we can dispatch 
somebody up there, you have to have a current NSTC card, which 
is a North Slope Training Co-op card. It trains about the North 
Slope safety, spills, the wildlife, and Arctic environment. 
That is an 8-hour class that they have to have, and we have 
refreshers on that when the producers change something in that.
    For an example, on GMT-1, when a worker comes to the job 
and does orientation, ConocoPhillips has a 2-hour video that 
you have to sit down and watch, and it covers everything from 
dealing with the relationship with the Native Alaskans that 
live around there, to oil spills, to your equipment that comes 
out there--anything with a motor on it has a drip pan 
underneath it, tied to it on the motor, and then, if it is 
parked you have to put a secondary containment underneath that, 
all the way to--there is no parking on the lakes, on the frozen 
lakes, to no fueling, either.
    In short, my personal opinion is I think the producers are 
a very good steward of the land. They look after the people, 
the environment, and the animals. There is no harassing of 
animals, either. They have the right of way, wherever, no 
matter what.
    Dr. Gosar. I appreciate it.
    Mr. Jepsen, a couple quick questions on the pipeline. I 
know the pipeline was designed for the maximum going through 
there, keeping the friction warm, less leakage. Are there any 
details about the limit of how far it goes, or if no oil is 
going through there, is there any revert on that contract, in 
regards to the land that the pipeline is on?
    Mr. Jepsen. I am sorry, can you repeat the last part of 
that question?
    Dr. Gosar. Yes. If there is no oil going through that 
pipeline, does the pipeline revert back? Is it stopped? Are 
there any provisions along those lines?
    Mr. Jepsen. Yes. The Trans-Alaska Pipeline system operates 
on a right-of-way from the Federal Government, as well as the 
state, and across Native lands. And we have that right-of-way 
as long as we are producing oil. If a pipeline shuts down, then 
there are provisions in the right-of-way that describe what we 
are going to do to remediate the land and potentially remove 
the pipeline out of the right-of-way, basically dismantle it.
    Dr. Gosar. What is that timetable, if you are not 
transporting oil? Is it days, months, years?
    Mr. Jepsen. I don't know the answer to that question off 
the top of my head. It is not days and months. Obviously, 
dismantling the Trans-Alaska Pipeline system would be a----
    Dr. Gosar. No, I understand. But the delivery through the 
pipeline of oil.
    Mr. Jepsen. OK. I am not familiar if there is a clause of 
that nature. But I think what would happen is you are going to 
see a significant decline of oil. You won't be able to do it, 
either economically or technically, move the oil through the 
pipeline. I am not familiar with any sort of specific time 
frame.
    Dr. Gosar. I appreciate it. Just if you do find that, it 
may generate some other questions for you.
    Now I thank all of you for traveling so far and coming 
forward. I thank you for your valuable testimony.
    And the Members may have additional questions. If so, we 
ask you to respond to those in writing. Under Committee Rule 
3(o), members of the Committee must submit those witness 
questions within 3 business days following the hearing, and the 
hearing record will be held open for 10 days for those 
responses.
    If there is no further business, the Subcommittee stands 
adjourned.

    [Whereupon, at 4:10 p.m., the Subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
